No. ___________

In the

Supreme Court of the United States
HARRIS COUNTY, TEXAS
Petitioner,
v.
PRSI TRADING, LLC
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF TEXAS
PETITION FOR A WRIT OF
CERTIORARI
BERNARDINO AGOSTO, JR. BRIAN S. HUMPHREY II
Counsel of Record
HUMPHREY LAW PLLC
ABRAHAM,
WATKINS, 700 Louisiana Street
NICHOLS,
SORRELS, Suite 3950
AGOSTO, AZIZ & STOGNER Houston, TX 77002
800 Commerce Street
(713) 364-2616
Houston, TX 77002
brian@htx-law.com
(713) 222-7211
bagosto@awtxlaw.com
Counsel for Petitioner

i

Q UESTION P RESENTED
This Court has held that an administrative
agency’s decisions made in a judicial capacity have
issue preclusive effect. B&B Hardware, Inc. v.
Hargis Industries, Inc., 575 U.S. 138, 148 (2015).
This Court has also held that deference to an
administrative agency’s interpretations of its own
regulations under Auer v. Robbins, 519 U.S. 452
(1997), respectively, applies only to interpretations
made as part of “the agency’s ‘authoritative’ or
‘official position.’” Kisor v. Wilkie, ___ U.S. ___, 139
S. Ct. 2400, 2416 (2019).
This local property tax case involves the
application of Customs and Border Patrol’s
interpretation of its own regulations in two
Headquarters Letter Rulings regarding the status of
a foreign trade subzone to determine whether
certain property in that subzone—specifically, tens
of millions of dollars’ worth of crude oil and refined
products at a refinery and tank farm—is exempt
from state and local ad valorem taxation under 19
U.S.C. § 81o(e), a provision of the Foreign Trade
Zones Act of 1934. The question presented is:
Whether the Texas Supreme Court erred in
failing to follow the findings of CBP in its
Headquarters Ruling Letters in holding that the
foreign trade subzone in question was “activated.”

ii

P ARTIES TO PROCEEDING AND R ELATED
C ASES
Petitioner:

Harris County, Texas

Respondent:

PRSI Trading LLC

Related cases:
•

Harris County v. PRSI Trading, LLC
and Harris County Appraisal District,
No. 2013-61450, 334th Judicial District
Court,
Harris
County,
Texas.
Summary judgment entered April 20,
2016.

•

Harris County v. PRSI Trading, LLC
and Harris County Appraisal District,
No. 4:13-cv-03437, U.S. District Court
for the Southern District of Texas.
Order remanding case to the 334th
District Court entered September 29,
2014.

•

Harris County v. Harris County
Appraisal District and PRSI Trading,
LLC, No. 01-16-00389-CV, Court of
Appeals of Texas, First District,
Houston. Opinion and judgment
reversing the trial court’s judgment

iii

and rendering judgment for Petitioner
issued June 22, 2017, reported at 579
S.W.3d
77.
Order
denying
reconsideration en banc issued June
12, 2018 and reported, with dissenting
opinions, at 554 S.W.3d 708.
•

PRSI Trading, LLC v. Harris County,
No. 18-0664, Supreme Court of Texas.
Opinion and judgment reversing the
court of appeals’ judgment and
rendering judgment for Respondent
issued February 28, 2020 and reported
at 599 S.W.3d 303. Order denying
Petitioner’s motion for rehearing
issued May 29, 2020, unreported.

iv

T ABLE OF C ONTENTS
Question Presented ................................................... i
Parties to proceeding and Related Cases ................ ii
Table of Contents .................................................... iv
Index of Authorities ................................................ vi
Opinions and Orders Below ..................................... 1
Jurisdiction............................................................... 1
Statutory and Regulatory Provisions Involved....... 2
Introduction.............................................................. 2
Statement of the Case .............................................. 3
I.

Statutory and Regulatory Background ...... 4

II.

This Case ..................................................... 6

Reasons for Granting the Writ .............................. 12
I.
CBP and FTZ Board regulations make clear
that a zone must be activated before goods can
receive the § 81o(e) tax exemption. ................... 13
II. Under principles of issue preclusion, the
Texas Supreme Court should have followed CBP’s
findings and held that the subzone was not
activated. ............................................................ 16
III.
The Texas Supreme Court improperly
focused on inferences drawn from the conduct of
CBP rather than its explicit holdings in the HRLs.
23
Conclusion .............................................................. 24

v

Appendix................................................................... 1
Appendix Table of Contents .................................... 2

vi

I NDEX OF A UTHORITIES
Cases
B&B Hardware, Inc. v. Hargis Industries, Inc., 575
U.S. 138 (2015) ................................. 18, 19, 20, 23
Chevron U.S.A., Inc. v. Nat’l Resources Defense
Council, Inc., 467 U.S. 837 (1984) ..................... 14
Conoco, Inc. v. U.S. Foreign-Trade Zones Board, 18
F.3d 1581 (Fed. Cir. 1994) ................................. 21
Kisor v. Wilkie, ___ U.S. ___, 139 S. Ct. 2400 (2019)
...................................................................... 23, 24
United States v. Mead Corp., 533 U.S. 218 (2001) 14
Univ. of Tenn. v. Elliott, 478 U.S. 788 (1986) ....... 20
Statutes
19 U.S.C. § 81a ......................................................... 4
19 U.S.C. § 81b ......................................................... 4
19 U.S.C. § 81c ......................................................... 4
19 U.S.C. § 81h ................................................... 4, 14
19 U.S.C. § 81o(e) ........................................... 3, 5, 13
28 U.S.C. § 1257(a)................................................... 1
Regulations
15 C.F.R. § 400.2 .................................................. 4, 5
19 C.F.R. § 146.1 ...................................................... 6
19 C.F.R. § 146.6(b)(5) ........................................... 16
19 C.F.R. § 146.7(e) ............................................ 6, 15
19 C.F.R. § 177.9(a) .......................................... 22, 24

1
Petitioner Harris County, Texas (“Harris
County”) respectfully petitions this Court for a writ
of certiorari to review the judgment of the Supreme
Court of Texas in this case.

O PINIONS AND O RDERS B ELOW
The opinion of the Supreme Court of Texas (App.
A-1) is reported at 599 S.W.3d 303. The order of the
Supreme Court of Texas denying Petitioner’s motion
for rehearing (App. A-88) is unreported. The opinion
of the Court of Appeals of Texas, First District (App.
A-18) is reported at 579 S.W.3d 77. The judgment of
the 334th District Court (App. A-63) is unreported.

J URISDICTION
The Texas Supreme Court entered its opinion
and judgment February 28, 3030. App. A-1. On May
29, 2020, the Texas Supreme Court denied a timely
motion for rehearing. App. A-89. On March 19, 2020,
this Court entered an Order extending the deadline
to file any petition for certiorari to 150 days from the
date of the lower court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. This Court has jurisdiction
under 28 U.S.C. § 1257(a) because the validity of a
statute of Texas is drawn in question on the ground
of its being repugnant to the laws of the United
States and because a right is claimed under the
statutes of the United States.
As recited in the opinions of the Texas Supreme
Court and the First Court of Appeals, the issue of
whether the federal ad valorem tax exemption under

2
19 U.S.C. § 81o(e) applies was raised through
Respondent’s assertion of that exemption in its
rendition to the Harris County Appraisal District
and by Petitioner’s challenge to that exemption
before the appraisal district and in its petition for
judicial review filed in the 334th District Court. App.
A-24. The application of this exemption was the
central issue of the entire course of litigation in this
case. The 334th District Court found that the
exemption applied, the Texas First Court of Appeals
held that it did not apply, and the Texas Supreme
Court held that it applied.
Additionally, Petitioner argued in its summary
judgment pleadings in the 334th District Court and
in its briefing in the state appellate courts that the
CBP’s headquarters ruling letters were entitled to
issue preclusive effect under this Court’s holding in
B&B Hardware, Inc. v. Hargis Industries, Inc., 575
U.S. 138, 147 (2015). A-33–34. The Texas First
Court of Appeals held that CBP’s ruling letters were
entitled to issue preclusive effect, while the Texas
Supreme Court gave greater weight to CBP’s actions
in granting temporary extensions after the letter
ruling.

S TATUTORY AND R EGULATORY P ROVIS IONS
I NVOLVED
Pertinent statutory and regulatory provisions
are reproduced in the statutory addendum to this
petition.

I NTRODUCTION

3
This is a local property tax case involving crude
oil and refined products (the Inventory) at an oil
refinery and tank farm located in a subzone that was
established under the Foreign Trade Zones Act of
1984. Respondent, the owner of the Inventory,
claimed that the Inventory is exempt from local
property tax under 19 U.S.C. § 81o(e). However,
CBP, which is responsible for supervising foreign
trade zones and subzones, ruled in two
Headquarters Ruling Letters (HRLs) that the
subzone was not “activated” pursuant to CBP
regulations during the tax years at issue. Under
CBP and Foreign Trade Zone Board regulations, a
zone or subzone must be “activated” for goods
therein to be exempt from state and local ad valorem
taxation under section 81o(e).
Despite CBP’s determinations in the HRLs, the
Texas Supreme Court held that the subzone was
“activated” and the tax exemption applied because,
despite CBP’s express rulings, the court inferred
from CBP’s other conduct treating the subzone as if
it was activated. Unlike the HRLs, however, CBP’s
acts on which the Texas Supreme Court relied were
not judicial decisions entitled to issue preclusive
effect, nor were they “authoritative” acts
constituting the “official position” of CBP entitled to
Auer deference. By disregarding the HRLs in favor
of its own inferences drawn from CBP’s non-judicial,
non-authoritative acts, the Texas Supreme Court
erred.

S TATEMENT OF THE C ASE

4
I.

STATUTORY AND REGULATORY BACKGROUND

Congress enacted the Foreign Trade Zones Act of
1934, 19 U.S.C. § 81a–81u, (the Act) authorizing the
establishment of Foreign Trade Zones (FTZs), secure
areas considered to be outside of the Customs
territory of the United States for the purposes of
payment of duty. The Act created the Foreign Trade
Zone Board (FTZ Board), comprised of the Secretary
of Commerce and the Secretary of the Treasury, and
authorizes the FTZ Board to establish FTZs. 19
U.S.C. §§ 81a(b), 81b(a).
FTZs are under the supervision of the Bureau of
Customs and Border Patrol (CBP), and are subject
to “such regulations respecting identity and the
safeguarding of the revenue as the Secretary of the
Treasury may deem necessary.” 19 U.S.C. § 81c(a).
The FTRZ Board also has authority to “prescribe
such rules and regulations not inconsistent with the
provisions of this chapter or the rules and
regulations of the Secretary of the Treasury made
hereunder[.]” 19 U.S.C. § 81h.
An FTZ is created through a “grant of authority”
by the FTZ Board to a “zone grantee,” or simply
“grantee,” authorizing the grantee “to establish,
operate and maintain a zone, subject to the
limitations and conditions specified in [15 C.F.R.
part 400] and 19 C.F.R. part 146.” 15 C.F.R. §
400.2(i). The grantee is typically a port authority or
other public corporation. The ultimate beneficiary of
an FTZ is a “zone operator,” or simply “operator,”
who “operates within a zone or subzone under the

5
terms of an agreement with the zone grantee (or
third party on behalf of the grantee), with the
concurrence of CBP.” 15 C.F.R. § 400.2(w).
Under the FTZ Board’s regulations, the FTZ
Board may create a special-purpose “subzone”
outside the confines of an FTZ. 15 C.F.R. § 400.3.
Such a subzone is for the use of a specific operator
for a limited purpose that cannot be accommodated
within the general-purpose Foreign Trade Zone. 19
C.F.R. § 146.1(b).
In 1983, Congress amended the Act, providing
that “[t]angible personal property imported from
outside the United States and held in a zone” for
certain purposes “shall be exempt from State and
local ad valorem taxation.” 19 U.S.C. § 81o(e).
The FTZ Board has clarified that property must
be “admitted” into a zone in order to be entitled to ad
valorem tax exemption: “Foreign merchandise
(tangible personal property) admitted to a zone and
domestic merchandise held in a zone for exportation
are exempt from certain state and local ad valorem
taxes. Articles admitted into zones for purposes not
specified in the Act shall be subject to the tariff laws
and regular entry procedures, including the payment
of applicable duties, taxes, and fees.” 15 C.F.R. §
400.1(c) (emphasis added).
“’Admit’ means to bring merchandise into a zone
with zone status.” 19 C.F.R. § 146.1(b). Merchandise
may only be admitted into a zone or subzone that has
been “activated”: “’Activation’ means approval by the
grantee and port director for operations and for the
admission and handling of merchandise in zone

6
status.” 19 C.F.R. § 146.1(b). Upon approval of an
application for activation and acceptance of an
executed bond, “the zone or zone site will be
considered activated; and merchandise may be
admitted into the zone.” 19 C.F.R. § 146.6(e). “Only
after the approval of activation will Users gain the
benefits conferred under the Act.” 1
If a new entity wishes to take over as operator of
an existing subzone, it must apply for and obtain the
concurrence of the zone grantee and approval of a
new activation. “A grantee of an activated zone shall
make written application to the port director for
approval of a new operator[.]” 19 C.F.R. § 146.7(e).
“If the operator is different, it is an activation.” 19
C.F.R. § 146.1(b). An application for zone activation
“must be accompanied by . . . [t]he written
concurrence of the grantee, when the operator
applies for activation, in the requested zone
activation.” 19 C.F.R. § 146.6(b)(5). If an operator is
a corporation and a “change results in a new
corporate entity, a new application shall be made
under the procedures in 19 C.F.R. § 146.6 and
Section 4.12 FTZM.” App. 5, FTZM § 4.13(b).
II.

THIS CASE

Petitioner Harris County, Texas is a political
subdivision of the State of Texas, empowered under
Texas law to assess and collect ad valorem taxes on
U.S. Customs and Border Patrol, FOREIGN TRADE ZONES
MANUAL, at 39, ¶ 4.1. Appendix 5. (FTZM).
1

7
real and tangible personal property within its
borders. Under the Texas Constitution, all real and
tangible personal property is subject to ad valorem
taxation unless subject to an exemption. Tex. Const.
art. 8, § 1(b). Texas law creates appraisal districts,
such as the Harris County Appraisal District
(HCAD), which are distinct from counties
themselves and which are tasked with appraising
property and preparing the tax roll, including
determining the application of any exemptions.
Taxing units, such as Harris County, annually
assess taxes on all property included in the tax roll.
Foreign Trade Zone 84 was created by a grant of
authority to the Port of Houston Authority as
grantee, and is generally located along the Houston
Shipping Channel within Harris County.
In 1995, Subzone 84N, which covers the refinery
and tank farm at 111 Red Bluff Road and 1200 Red
Bluff Road, Pasadena, Texas, was created in favor of
its original operator, Crown Central Petroleum
Corporation. As part of this process, Crown Central
entered into an agreement with Harris County to
secure Harris County’s non-opposition to the
creation of the subzone.
In 2004, the refinery and tank farm were sold to
Pasadena Refining System, Inc. (“PRSI DE”), a
Delaware corporation that was a subsidiary of Astra
Holding USA, Inc., a Connecticut corporation that
was itself a subsidiary of the Belgian conglomerate
NPM/CNP. PRSI DE was approved by CBP as the
new operator of Subzone 84N. This sale was made
without Harris County’s knowledge or consent, and

8
Harris County’s non-opposition to CBP’s approval of
a new operator was never secured.
Between 2004 and 2006, PRSI DE was merged
with its parent, Astra Holding US, Inc., which
changed its name to Pasadena Refining System, Inc.
(the aforementioned “PRSI CT’). Despite the fact
that the two entities have the same name, PRSI CT
is a separate and distinct entity from PRSI DE.
Furthermore, half of the stock in PRSI CT was sold
to Petrobras America, Inc. After this time, Petrobras
purchased the other half of PRSI CT.2 As with the
2004 sale, this change in ownership of the refinery
and tank farm occurred without Harris County’s
knowledge or consent.
PRSI CT failed to apply for a grant of authority
as the new operator of Subzone 84N or to CBP for a
new activation of the subzone. Consequently, in a
September 21, 2009 Headquarters Ruling Letter
(HRL),
CBP,
the
agency
charged
with
administration of laws and regulations concerning
the operation of foreign trade zones and subzones,
held that the authorized operator of Subzone 84N,
PRSI DE, ceased to exist on August 29, 2006, that
PRSI CT is a new entity, and that PRSI CT was
required to apply for and obtain a new activation of
the subzone:
A foreign trade zone or subzone ... has
an activated status, or has had its
During the pendency of this case, and after the tax years at
issue, PRSI CT was purchased by Chevron USA, Inc.
2

9
“activation” approved, if the zone
grantee and the CBP port director
approve the operation of the zone.... If
the operator of a zone is about to be
changed, then there must be an
application for approval of activation of
the zone When
a zone is operated by a corporation, and
a change in the operator corporation
“results in a new corporate entity, a
new application for activation shall be
made” pursuant to [19] C.F.R. § 146.6.
....
Pasadena Refining CT was a new legal
entity, which differed from the operator
at the time of the 2005 activation of
Subzone 84-N. Either the zone operator
or the grantee should have applied for
activation prior to the termination of
Pasadena Refining DE.
....
Pasadena Refining DE, the operator of
Subzone 84-N, ceased to exist on
August 29, 2006, and Pasadena
Refining CT is a new entity for
purposes of determining whether it is a
new zone operator. Therefore, in
Pasadena Refining CT’s application for
approval of what must be activation,
Pasadena Refining CT must provide a
letter of concurrence from the [Port of]

10
Houston Authority, the zone grantee,
before CBP will approve the activation.
App. A-65–73.
On May 5, 2010, PRSI CT filed a Request for
Reconsideration with CBP, asking it to reconsider
its letter ruling. On December 21, 2012, PRSI CT
filed a memorandum with CBP briefing its
arguments for reconsideration of the letter ruling.
On April 12, 2013, CBP issued a second HRL
denying PRSI CT’s Request for Reconsideration:
Operation of an FTZ is a privilege not a
right. Moreover, CBP does not permit
the sale or transfer of the FTZ operator
status between entities. The CBP
Regulations and the FTZM require
that new FTZ operators be approved
prior to operating a zone.... As
explained above, since Pasadena DE
ceased to exist, CBP’s approval to
operate the FTZ also ceased. Pasadena
CT therefore, must be a new operator.
This new operator must apply for
approval to operate the FTZ.
App. A-75–87.
PRSI CT has never obtained the authority to
operate Subzone 84N from CBP, the Foreign Trade
Zones Board, or the Port of Houston Authority, nor
did it ever obtain approval for a new activation of
Subzone 84N. Indeed, on August 23, 2013, Subzone
84N was formally deactivated by CBP.

11
Before Subzone 84N was formally deactivated,
the port director issued a series of letters granting
PRSI CT temporary authorization to continue
operating the subzone. None of these letters
referenced whether the subzone was activated,
referenced state and local ad valorem taxes, or
purported to alter or suspend the effect of the 2009
and 2013 HRLs.
Despite the fact that there has been no approved
operator of Subzone 84N, PRSI Trading claimed its
renditions to HCAD an FTZ exemption from ad
valorem taxation of its crude oil and refined products
(the Inventory) within Subzone 84N, including taxes
assessed by Harris County. HCAD erroneously
granted the FTZ exemption each year between 2006
and 2013, and therefore the Inventory has
improperly escaped taxation.
On May 30, 2013, Harris County filed a petition
under Texas law with HCAD’s Appraisal Review
Board (the ARB) to challenge the exemption. The
ARB denied the challenge on September 16, 2013.
Harris County then timely filed a petition for
judicial review under Texas law with the 334th
District Court.
The case was removed by PRSI Trading to the
federal district court and then remanded by the
district court back to the 334th District Court. Each
party then filed a motion for summary judgment.
The 334th District Court granted PRSI Trading’s
motion for summary judgment and denied Harris
County’s.

12
Harris County appealed to the Court of Appeals
of Texas for the First District (the First Court of
Appeals). The First Court of Appeals reversed the
trial court’s judgment and rendered judgment for
Harris County, holding that the FTZ Exemption did
not apply because, as determined by CBP, Subzone
84N was not “activated” during the relevant tax
years. PRSI Trading filed a motion for
reconsideration en banc, which was denied.
PRSI Trading then petitioned for review to the
Texas Supreme Court. The Texas Supreme Court
granted the petition and, after hearing, reversed the
judgment of the First Court of Appeals, holding that
the FTZ Exemption applied. The Texas Supreme
Court noted: “The parties' dispute can be distilled
down to one question: Was Subzone 84-N activated
during the tax years at issue? If it was, all agree that
the ad valorem tax exemption applies to Pasadena's
inventory.” A-8, 599 S.W.3d at 307. Contrary to
CBP’s HRLs, the Texas Supreme Court held that
Subzone 84-N was activated because CBP otherwise
behaved as if the subzone was activated, including
by issuing the temporary authorization letters.

R EASONS FOR G RANTING THE W RIT
It is undisputed, for reasons explained below and
as the Texas Supreme Court correctly recognized,
that a subzone must be “activated” pursuant to CBP
regulations before goods in the subzone can receive
the section 81o(e) tax exemption. However, the
Texas Supreme Court erred in failing to follow CBP’s

13
determination in its HRLs that the subzone was not
activated. The petition should be granted.
I.

CBP

AND

FTZ BOARD

REGULATIONS MAKE

CLEAR THAT A ZONE MUST BE ACTIVATED
BEFORE GOODS CAN RECEIVE THE

§ 81O(E)

TAX EXEMPTION.

The issue in this case is whether the federal tax
exemption for property within a foreign trade zone,
the “FTZ Exemption,” applies to the Inventory
during the tax years at issue. With the FTZ
Exemption, Congress has provided that “[t]angible
personal property” which is “held in a zone” for
certain enumerated purposes “shall be exempt from
State and local ad valorem taxation.” 19 U.S.C. §
81o(e). Congress has not defined the term “held” or
the phrase “held in a zone” in the Foreign Trade
Zones Act.
However, Congress has delegated to the Foreign
Trade Zones Board (the “Board”, consisting of the
Secretaries of Commerce and the Treasury) and to
the Secretary of the Treasury rulemaking authority
governing the use and operation of foreign trade
zones.3 These regulations establish the procedures
The taking of articles into a foreign trade zone is “subject to
such regulations respecting identity and the safeguarding of
the revenue as the Secretary of the Treasury may deem
necessary.” 19 U.S.C. § 81c(a). “The Board shall prescribe such
rules and regulations not inconsistent with the provisions of
this chapter or the rules and regulations of the Secretary of the
Treasury made hereunder and as may be necessary to carry
3

14
by which property may enjoy the benefits of zone
status, including exemption from state and local ad
valorem taxation.
Where
Congress
has
entrusted
the
administration of a statutory scheme to an agency,
“a court may not substitute its own construction of a
statutory provision for a reasonable interpretation
made by the administrator of an agency.” Chevron
U.S.A., Inc. v. Nat’l Resources Defense Council, Inc.,
467 U.S. 837, 844 (1984).
“[A]dministrative
implementation of a particular statutory provision
qualifies for Chevron deference when it appears that
Congress delegated authority to the agency
generally to make rules carrying the force of law,
and that the agency interpretation claiming
deference was promulgated in the exercise of that
authority.” United States v. Mead Corp., 533 U.S.
218, 226-27 (2001).
Here, the Foreign Trade Zones Board has
clarified that property must be “admitted” into a
zone in order to be entitled to ad valorem tax
exemption: “Foreign merchandise (tangible personal
property) admitted to a zone and domestic
merchandise held in a zone for exportation are
exempt from certain state and local ad valorem
taxes. Articles admitted into zones for purposes not

out this chapter.” 19 U.S.C. § 81h. Merchandise taken into the
zone “may be stored, manipulated, or manufactured under the
supervision and regulations prescribed by the Secretary of the
Treasury”—here represented by CBP. 19 U.S.C. § 81c(a).

15
specified in the Act shall be subject to the tariff laws
and regular entry procedures, including the payment
of applicable duties, taxes, and fees.” 15 C.F.R. §
400.1(c) (emphasis added).
“’Admit’ means to bring merchandise into a zone
with zone status.” 19 C.F.R. § 146.1(b). Merchandise
may only be admitted into a zone or subzone that has
been “activated”: “’Activation’ means approval by the
grantee and port director for operations and for the
admission and handling of merchandise in zone
status.” Id. Upon approval of an application for
activation and acceptance of an executed bond, “the
zone or zone site will be considered activated; and
merchandise may be admitted into the zone.” 19
C.F.R. § 146.6(e). “Only after the approval of
activation will Users gain the benefits conferred
under the Act.” U.S. Customs and Border Patrol,
FOREIGN TRADE ZONES MANUAL, at 39, ¶ 4.1.
(hereafter, “FTZM”).
If a new entity wishes to take over as operator of
an existing subzone, it must apply for and obtain the
concurrence of the zone grantee and approval of a
new activation. “A grantee of an activated zone shall
make written application to the port director for
approval of a new operator[.]” 19 C.F.R. § 146.7(e).
“If the operator is different, it is an activation.” 19
C.F.R. § 146.1(b). An application for zone activation
“must be accompanied by . . . [t]he written
concurrence of the grantee, when the operator
applies for activation, in the requested zone
activation.” 19 C.F.R. § 146.6(b)(5). If an operator is
a corporation and a “change results in a new

16
corporate entity, a new application shall be made
under the procedures in 19 C.F.R. § 146.6 and
Section 4.12 FTZM.” FTZM § 4.13(b).
Under the regulations of the Foreign Trade Zones
Board, only merchandise “admitted” to a zone is
entitled to exemption from ad valorem taxation.” 15
C.F.R. § 400.1(c). Merchandise may only be
“admitted” to a zone “[u]pon the port director’s
approval of the application” to activate the zone. 19
C.F.R. § 146.6(e).
II.

UNDER PRINCIPLES OF ISSUE PRECLUSION,
THE TEXAS SUPREME COURT SHOULD HAVE
FOLLOWED CBP’S FINDINGS AND HELD THAT
THE SUBZONE WAS NOT ACTIVATED.

As the Texas Supreme Court noted, “The parties'
dispute can be distilled down to one question: Was
Subzone 84-N activated during the tax years at
issue? If it was, all agree that the ad valorem tax
exemption applies to Pasadena's inventory.” A-8,
599 S.W.3d at 307. The entire proceeding in state
court was a re-litigation of this issue was already
answered by CBP in its 2009 and 2013
Headquarters Ruling Letters (HRLs):
A foreign trade zone or subzone ... has
an activated status, or has had its
“activation” approved, if the zone
grantee and the CBP port director
approve the operation of the zone.... If
the operator of a zone is about to be
changed, then there must be an

17
application for approval of activation of
the zone When a zone is operated by a
corporation, and a change in the
operator corporation “results in a new
corporate entity, a new application for
activation shall be made” pursuant to
[19] C.F.R. § 146.6.
....
Pasadena Refining CT was a new legal
entity, which differed from the operator
at the time of the 2005 activation of
Subzone 84-N. Either the zone operator
or the grantee should have applied for
activation prior to the termination of
Pasadena Refining DE.
....
Pasadena Refining DE, the operator of
Subzone 84-N, ceased to exist on
August 29, 2006, and Pasadena
Refining CT is a new entity for
purposes of determining whether it is a
new zone operator. Therefore, in
Pasadena Refining CT’s application for
approval of what must be an activation,
Pasadena Refining CT must provide a
letter of concurrence from the [Port of]
Houston Authority, the zone grantee,
before CBP will approve the activation.
2009 HRL, App. A-65–73.
Operation of an FTZ is a privilege not a
right. Moreover, CBP does not permit

18
the sale or transfer of the FTZ operator
status between entities. The CBP
Regulations and the FTZM require
that new FTZ operators be approved
prior to operating a zone.... As
explained above, since Pasadena DE
ceased to exist, CBP’s approval to
operate the FTZ also ceased. Pasadena
CT therefore, must be a new operator.
This new operator must apply for
approval to operate the FTZ.
2013 HRL, App. A-75–87.
In these HRLs, CBP is clear that Subzone 84-N
ceased to be “activated” when its operator, PRSI DE,
ceased to exist, and that PRSI CT, as a new operator,
was required to apply for “what must be an
activation.” A-73. PRSI CT, Respondent’s sister
company, was a party to the proceeding that
resulted in the HRLs, and thus it is bound by the
result.
“This Court has long recognized that ‘the
determination of a question directly involved in one
action is conclusive as to that question in a second
suit.’” B&B Hardware, Inc. v. Hargis Industries,
Inc., 575 U.S. 138, 147 (2015). “Both this court’s
cases and the Restatement make clear that issue
preclusion is not limited to those situations in which
the same issue is before two courts. Rather, where a
single issue is before a court and an administrative
agency, preclusion also often applies.” Id. at 148.
“This reflects the Court’s longstanding view that
‘”[w]hen an administrative agency is acting in a

19
judicial capacity and resolves disputed issues of fact
properly before it which the parties have had an
adequate opportunity to litigate, the courts have not
hesitated to apply res judicata to enforce repose.”’”
Id.
In B&B Hardware, B&B filed an opposition with
the Patent and Trademark Office (the PTO) to
Hargis’s registration of a trademark. B&B
Hardware, at 145. After conducting an opposition
proceeding, the PTO’s Trademark and Trial Appeal
Board (the TTAB) issued a ruling siding with B&B
and holding that Hargis’s trademark could not be
registered because it was likely to be confused with
B&B’s own trademark. Id. at 146. “Despite the right
to do so, Hargis did not seek judicial review in either
the Federal Circuit or District Court.” Id.
While the opposition proceeding was ongoing,
B&B sued Hargis in federal district court for
infringement, a cause of action of which “likelihood
of confusion” is an element. Id. The TTAB’s ruling
was issued prior to trial in the infringement suit,
and B&B argued that the ruling precluded Hargis
from contesting the issue of likelihood of confusion.
Id. at 6-7. The district court disagreed with B&B,
and the jury found for Hargis. Id. at 7.
Reversing the trial court’s ruling, this Court held
that “a court should give preclusive effect to TTAB
decisions if the ordinary elements of issue preclusion
are met.” Id. at 2. “[B]ecause the principle of issue
preclusion was so well established at common law,
in those situations in which Congress has authorized
agencies to resolve disputes, courts may take it as

20
given that Congress has legislated with the
expectation that the principle of issue preclusion will
apply except when a statutory purpose to the
contrary is evident.” Id. at 148 (internal quotes
omitted). “When an administrative agency is acting
in a judicial capacity and resolves disputed issues of
fact properly before it which the parties have had an
adequate opportunity to litigate, the courts have not
hesitated to apply res judicata to enforce repose.” Id.
(quoting Univ. of Tenn. v. Elliott, 478 U.S. 788, 79798 (1986)).
This Court explained that it was not evident that
Congress intended to forbid issue preclusion from
applying to TTAB decisions simply because their
decisions were subject to de novo judicial review.
B&B Hardware, at 152. “Ordinary preclusion law
teaches that if a party to a court proceeding does not
challenge an adverse decision, that decision can
have preclusive effect in other cases, even if it would
have been reviewed de novo.” Id. Where a party
believes that an agency erred in its application of the
law, “an aggrieved party should seek judicial
review,” but the fact that the agency may have erred
“does not prevent preclusion.” Id. at 157.
Here, as in B&B Hardware, PRSI CT availed
itself of the opportunity to fully and fairly litigate
the issue of whether it was an authorized operator
of Subzone 84N. It was provided with notice of the
first letter ruling and submitted a Request for
Reconsideration and a memorandum briefing CBP
on its legal arguments. CBP considered PRSI CT’s
arguments and addressed them in detail in its

21
second letter ruling denying PRSI CT’s Request for
Reconsideration.
Also, as in B&B Hardware, PRSI CT did not seek
judicial review of CBP’s ruling, despite having the
right to seek such review in the Court of
International Trade. See Conoco, Inc. v. U.S.
Foreign-Trade Zones Board, 18 F.3d 1581 (Fed. Cir.
1994) (holding that the CIT has jurisdiction to
conduct judicial review of agency rulings regarding
the grant of subzones). If PRSI CT or PRSI Trading
wished to dispute CBP’s ruling, their remedy was to
seek judicial review in the Court of International
Trade, and not to relitigate the issue in this
proceeding.
Because PRSI Trading is collaterally estopped
from relitigating CBP’s unchallenged HRLs, the
facts and conclusions contained in the ruling are
conclusively established pursuant to the doctrine of
issue preclusion. The Texas courts should,
accordingly, have taken it as conclusively
established that, during the relevant tax years,
there has been no authorized operator of Subzone
84N and Subzone 84N has not been activated.
CBP was acting in a judicial capacity when
issuing the HRLs, which are published by CBP, and
can be found on CBP’s Customs Rulings Online
Search System.4 Contrary to an assertion made by

CBP’s September 21, 2009 ruling letter, HQ H027423 is
available
on
CBP’s
“CROSS”
system
at
https://rulings.cbp.gov/ruling/H027423. CBP’s April 12, 2013
4

22
Respondent in the Texas Supreme Court, ruling
letters are not “advice”:
A ruling letter issued by the Customs
Service under the provisions of this
part represents the official position of
the Customs Service with respect to
the particular transaction or issue
described therein and is binding on all
Customs
Service
personnel
in
accordance with the provisions of this
section until modified or revoked. In
the absence of a change of practice or
other modification or revocation which
affects the principle of the ruling set
forth in the ruling letter, that principle
may be cited as authority in the
disposition of transactions involving
the same circumstances.
19 C.F.R. § 177.9(a).
The Texas courts in this case, including the
Texas Supreme Court, were bound by CBP’s
interpretation of section 81o(e) and its own
regulations, and by CBP’s HRLs ruling that Subzone
84N was not “activated.” The Texas Supreme Court
erred in holding that Subzone 84N was activated.

ruling letter, HQ H105336, is available on CBP’s “CROSS”
system at https://rulings.cbp.gov/ruling/H105336.

23
III.

THE TEXAS SUPREME COURT

IMPROPERLY

FOCUSED ON INFERENCES DRAWN FROM THE
CONDUCT OF CBP RATHER THAN ITS EXPLICIT
HOLDINGS IN THE HRLS.

In its opinion, the Texas Supreme Court failed to
acknowledge the issue-preclusive effect of the HRLs,
but instead held that CBP “treated Subzone 84-N as
activated” through other, non-judicial actions. App.
A-12. The Texas Supreme Court focused on CBP’s
issuance of temporary authorization letters to PRSI
CT and the fact that CBP took no action to stop PRSI
CT from operating. However, none of these acts were
taken by CBP acting in a judicial capacity, as it was
when it issued the HRLs.
Issue preclusion has only been held to apply to an
agency acting in a judicial capacity. B&B Hardware,
575 U.S. at 163. Likewise, this Court has held that
Auer deference does not apply to interpretations
inferred from acts such as those relied on by the
Texas Supreme Court, but only to a “regulatory
interpretation actually made by the agency.” Kisor
v. Wilkie, ___ U.S. ___, 139 S. Ct. 2400, 2416 (2019).
“In other words, it must be the agency’s
‘authoritative’ or ‘official position,’ rather than any
more ad hoc statement not reflecting the agency’s
views.” Id. The “requirement of ‘authoritative’ action
must recognize a reality of bureaucratic life: Not
everything the agency does comes from, or is even in
the name of, the Secretary or his chief advisors.” Id.
“The interpretation must at the least emanate from
those actors, using those vehicles, understood to

24
make authoritative policy in the relevant context.”
Id.
An HRL “represents the official position of” CBP.
19 C.F.R. § 177.9(a). There is no regulation or other
authority providing that a letter granting temporary
authority to operate a subzone or CBP’s failure to
eject an unauthorized operator from a subzone is
authoritative or constitutes the official position of
CBP. Only CBP’s interpretation of its regulations
contained in the HRLs, not interpretations inferred
from other acts, are entitled to deference. Kisor, at
2416.
This case presents an opportunity for this Court
to clarify the scope of administrative issue
preclusion under B&B Hardware and of Auer
deference. Further, this case presents an
opportunity for this Court to clarify whether and
when a court may disregard an agency’s judicial
decisions or authoritative interpretations of its own
regulations in favor of conflicting inferences drawn
from acts of the agency’s employees.
The petition for writ of certiorari should be
granted so that this Court may resolve these
questions.

C ONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,

25
/s/ Bernardino Agosto, /s/ Brian S. Humphrey
Jr.
II
BERNARDINO AGOSTO, JR. BRIAN S. HUMPHREY II
Counsel of Record
HUMPHREY LAW PLLC
ABRAHAM,
WATKINS, 700 Louisiana Street
NICHOLS,
SORRELS, Suite 3950
AGOSTO, AZIZ & STOGNER Houston, TX 77002
800 Commerce Street
(713) 364-2616
Houston, TX 77002
brian@htx-law.com
(713) 222-7211
bagosto@awtxlaw.com
Counsel for Petitioner
October 26, 2020

A PPENDIX

A PPENDIX T ABLE OF C ONTENTS
Page
Opinion of the Supreme Court of Texas, A-1
PRSI Trading, LLC v. Harris County, 599
S.W.3d 317 (Tex. 2020)
Opinion of the Court of Appeals of Texas, A-18
First District, Houston, Harris County v.
Harris County Appraisal District and
PRSI Trading, LLC, 579 S.W.3d 77 (Tex.
App.—Houston [1st Dist.] 2017)
Order of the 334th District Court, Harris A-63
County, Texas, Harris County v. Harris
County Appraisal District and PRSI
Trading, LLC, No. 2013-61450 (Tex. Dist.
April 20, 2016), granting summary
judgment.
U.S. Customs and Border Protection A-65
Headquarters Ruling Letter HQ H027423
(Sep. 21, 2009)
U.S. Customs and Border Protection A-75
Headquarters Ruling Letter HQ H105336
(April 12, 2013)
Order of the Supreme Court of Texas A-88
denying Petitioner’s motion for rehearing.
19 U.S.C. § 81a(b)

A-89

19 U.S.C. § 81b(a)

A-89

19 U.S.C. § 81c(a)

A-89

19 U.S.C. § 81h

A-95

19 U.S.C. § 81o(e)

A-95

15 C.F.R. § 400.1(c)

A-95

15 C.F.R. § 400.42(a)

A-97

19 C.F.R. § 146.1

A-97

19 C.F.R. § 146.6

A-101

19 C.F.R. § 146.7(e)

A-103

19 C.F.R. § 177.9(a)

A-104

A-1

SUPREME COURT OF TEXAS
NO. 18-0664
PRSI TRADING, LLC, Petitioner,
v.
HARRIS COUNTY, Respondent.
Petition for Review from the Court of Appeals
for the First District of Texas,
No. 01-16-00389-CV
Decided: February 28, 2020
599 S.W.3d 303
CHIEF JUSTICE HECHT delivered the opinion
of the Court. JUSTICE BOYD and JUSTICE
BLAND did not participate in the decision.
The federal Foreign-Trade Zones Act of 19341
provides for the designation of duty-free areas of
operation in or near United States ports of entry.
The Act exempts goods imported from outside the

1 19

U.S.C. §§ 81a-81u.

A-2
United States and held within a zone for certain
purposes from state and local ad valorem taxation.2
The court of appeals held that the exemption did not
apply to petitioner's imported crude oil and refinery
products because the zone involved was not
activated at the time.3 We disagree and therefore
reverse the judgment of the court of appeals and
render judgment for petitioner.
I
Foreign-trade zones (FTZs) are located in the
United States, but goods imported into the zones are
not subject to tariffs or duties until they leave.4
Goods in FTZs may be processed and incorporated
into finished products bearing lower tariffs than the
original goods. Postponing the imposition of tariffs
often results in a lower finished-good cost, thus
encouraging manufacturing in the United States
instead of abroad.5

2 Id.

§ 81o(e).

3 579

S.W.3d 77, 84-85 (Tex. App.—Houston [1st Dist.] 2017).

4 See

15 C.F.R. § 400.1(c); see alsoU.S. CUSTOMS AND BORDER
PROT., DEP'T OF HOMELAND SEC., PUB. NO. 0000-0559A,
FOREIGN-TRADE ZONES MANUAL § 1.1 (2011) [hereinafter
FTZM].
5 See

Scott H. Segal & Stephen J. Orava, Playing the Zone and
Controlling the Board: The Emerging Jurisdictional Consensus
and the Court of International Trade, 44 AM. UNIV. L. REV.
2393, 2402-2404 (1995); About Foreign-Trade Zones, U.S.
CUSTOMS
AND
BORDER
PROTECTION,

A-3
The Act authorizes a Board to create FTZs.6
Customs and Border Protection supervises the
operation of the FTZs the Board creates.7 The Board
may also create subzones—limited-purpose zones
established outside the confines of existing FTZs
that enjoy the same status and benefits as generalpurpose zones.8
Putting an FTZ into operation is a two-stage
process. The Board first approves a grantee to
establish, operate, and maintain the zone.9 Customs
then must vet and approve an operator and activate
the zone to allow goods to be admitted with zone
status.10 Importantly, zone benefits, such as the ad
valorem tax exemption, do not accrue until Customs

https://www.cbp.gov/border-security/ports-entry/cargosecurity/cargo-control/foreign-trade-zones/about (last visited
Feb. 18, 2020).
6 19

U.S.C. §§ 81a(b), 81b(a).

7 FTZM

§ 1.1.

8 15

C.F.R. § 400.3(a)(2). Subzones are usually private plant
sites authorized by the Board for operations that cannot be
accommodated within an existing general-purpose FTZ. About
Foreign-Trade Zones, U.S. CUSTOMS AND BORDER PROTECTION,
https://www.cbp.gov/border-security/ports-entry/cargosecurity/cargo-control/foreign-trade-zones/ about (last visited
Feb. 18, 2020).
9 FTZM
10 Id.;

§ 4.1.

see also 19 C.F.R. § 146.6 (setting forth the procedures
for activation).

A-4
activates the zone.11 Under the regulations,
activation requires approval of the zone's grantee.12
The terms operator and activation go hand in hand
in the FTZ regulations; a party only operates an
activated zone and an activated zone must have an
operator.13
In 1995, the Board approved the Port of Houston
Authority as grantee of Subzone 84-N, which
consists of a refinery and connected facilities in
Pasadena, Texas that are used to store imported
crude oil and refined petroleum products. Customs
activated Subzone 84-N with the refinery's original
owner, Crown Central Petroleum Corporation, as
operator. In 2004, Crown sold the refinery to
Pasadena Refining System, Inc., a Delaware
corporation, which we will call Pasadena-DE. The
Port of Houston agreed for Pasadena-DE to replace

11 FTZM

§ 4.1 ("Only after the approval of activation will Users
gain the benefits conferred under the FTZ Act.").
12 19

C.F.R. § 146.1(b) ("'Activation' means approval by the
grantee and port director for operations and for the admission
and handling of merchandise in zone status.").
13 See

FTZM § 4.6 ("An FTZ may commence operations after
approval by the Port Director of an application to activate
[pursuant to 19 C.F.R. § 146.6]."); id. § 4.7(a) ("An Operator . .
. shall make written application to the local Port Director to
obtain approval for activation of an FTZ or FTZ site.").

A-5
Crown as operator of Subzone 84-N, and Customs
approved the change in February 2005.14
Some 18 months later, in August 2006,
Pasadena-DE merged into its parent, which in turn
simultaneously merged into its parent, a
Connecticut corporation, which then changed its
name to Pasadena Refining System, Inc., the same
as Pasadena-DE's. We will refer to the new entity as
Pasadena. Pasadena applied to Customs for
approval to become the new operator of Subzone 84N,15 but by that time, the Port of Houston had
changed its policy to withhold concurrence unless
Harris County did not object to the proposed
operator's application. Harris County would not
provide a letter of nonobjection to the Port unless
Pasadena first agreed to waive its right to the FTZ
ad valorem tax exemption. Pasadena refused and
instead changed positions, asserting in a statement
to Customs that it was not a new operator after all
and therefore was not required to follow the
procedures in the FTZ regulations for activation of a
zone, which require the Port's agreement.16

14 19

C.F.R. § 146.6(b)(5) (requiring written concurrence of the
grantee when an operator applies for activation).
15 Pasadena's

FTZ administrator, Jon Mattson, testified by
affidavit that Pasadena applied to Customs for reapproval out
of an "abundance of caution" and because it believed approval
would be "automatic" given its close relation to Pasadena-DE.
16 19

C.F.R. § 146.6.

A-6
Pasadena continued operations in Subzone 84-N,
just as Pasadena-DE had.17 The Appraisal District
continued the operation's tax exemption. On
September 21, 2009, Customs issued a letter ruling
that Pasadena-DE had ceased to exist in August
2006 as a result of the mergers, that Pasadena was
a new entity that had to apply for approval and
activation, and that the Port's concurrence was
required. Pasadena sought administrative review of
the letter ruling and continued to press its case with
Customs that it should not be considered a new
operator because it had succeeded to all of PasadenaDE's rights and privileges as a matter of state law.18
Over five years, from April 2008 to April 2013,
Customs issued 53 monthly letters giving Pasadena
temporary authorization to [**5] operate and move
goods through Subzone 84-N with zone status. The
Appraisal District continued the tax exemption
unchanged.
Finally, in April 2013, Customs issued a second
letter ruling reaffirming that Pasadena was a new

17 A

sister entity, petitioner PRSI Trading, LLC, owned the
crude oil imported into the zone and the products refined from
it. Our references to Pasadena include PRSI Trading unless the
context indicates otherwise.
18 Pasadena

filed a request for reconsideration, arguing that it
should not be considered a new operator because (1) PasadenaDE "continues to exist as part of" Pasadena; (2) Pasadena-DE's
rights and privileges vested in Pasadena as a result of the
mergers; and (3) Pasadena was operating identically to
Pasadena-DE in all material respects.

A-7
corporate entity and that it was therefore required
to apply for approval to operate Subzone 84-N.19 In
response, the Port of Houston, which still refused to
concur in the application, requested for the first time
that Customs deactivate the zone. Customs began
the process, which was completed in August 2013.
Pasadena removed its inventory, and the Appraisal
District ceased to recognize the tax exemption.
Harris County petitioned the Harris County
Appraisal Review Board for a determination that
Pasadena's operations in Subzone 84-N had never
been tax-exempt because Pasadena had never
qualified as the operator after the merger and that
the County was owed taxes from 2011 through
2013.20 The Appraisal Review Board denied relief,
and Harris County brought this action for judicial
review.21 The trial court granted Pasadena's and the

19 See

FTZM § 4.13(a) ("If the [operator] is a corporation and
the change results in a new corporate entity, a new application
for activation shall be made under the procedures in 19 CFR
146.6".). The 2009 and 2013 letter rulings are in Appendix D to
Petitioner's Brief on the Merits.
20 Harris

County sought relief under § 25.21 of the Texas Tax
Code, which allows an appraisal district to add personal
property omitted from the appraisal roll for the two years
preceding the challenge.
21 TEX.

TAX CODE § 42.031(a) ("A taxing unit is entitled to
appeal an order of the appraisal review board determining a
challenge by the taxing unit.").

A-8
Appraisal District's summary judgment motions and
denied Harris County's.
The court of appeals reversed and rendered
judgment in favor of Harris County.22 The court
concluded that "[w]ithout activation of Subzone 84N pursuant to approval of a new operator,
[Pasadena's] inventory could not have been properly
admitted into the subzone, and, thus, was not
entitled to exemption from ad valorem taxation."23
We granted Pasadena's petition for review.
II
The parties' dispute can be distilled down to one
question: Was Subzone 84-N activated during the
tax years at issue? If it was, all agree that the ad
valorem tax exemption applies to Pasadena's
inventory.
A
Under the Act, "[t]angible personal property"
that is "held in a zone" for certain enumerated
purposes "shall be exempt from State and local ad
valorem taxation."24 Though the Act does not define

22 579
23 Id.
24 19

S.W.3d 77, 79 (Tex. App.—Houston [1st Dist.] 2017).

at 85.

U.S.C. § 81o(e); see alsoTEX. TAX CODE § 11.12 ("Property
exempt from ad valorem taxation by federal law is exempt from
taxation.").

A-9
"held in a zone", it gives the Board and Customs
authority to make rules governing the use and
operation of FTZs.25 These regulations, set out in the
Code of Federal Regulations and summarized in the
FTZ Manual, comprise the scheme by which FTZs
are governed.26
The regulations are clear. Imported goods must
be admitted into a zone to be entitled to the tax
exemption.27 Goods may only be admitted into a zone
that has been activated.28 Activation, in turn,
requires approval by the grantee.29 Once Customs
approves an operator's application for activation and

25 19

U.S.C. § 81h.

26 "The

Foreign-Trade Zones Act is administered through two
sets of regulations, the FTZ Regulations (15 CFR Part 400) and
[Customs] Regulations (19 CFR Part 146)." About ForeignTrade Zones, U.S. CUSTOMS AND BORDER PROTECTION,
https://www.cbp.gov/border-security/ports-entry/cargosecurity/cargo-control/foreign-trade-zones/about (last visited
Feb. 18, 2020). The FTZ Manual paraphrases the regulations
"for the sake of simplicity and easier reading." FTZM at 2. In
that spirit, our references to FTZ regulations include those in
15 C.F.R., 19 C.F.R., and the Manual.
27 15

C.F.R. § 400.1(c); see also 19 C.F.R. § 146.1(b) ("'Admit'
means to bring merchandise into a zone with zone status.").
28 19

C.F.R. § 146.6(e) ("Upon the port director's approval of the
application and acceptance of the executed bond, the zone or
zone site will be considered activated; and merchandise may be
admitted to the zone.").
29 Id.

§ 146.1(b).

A-10
accepts an executed bond, the zone is considered
activated, goods can be admitted, and the benefits
conferred under the Act begin to flow.30 If another
party later seeks to take over as the operator of an
existing zone, it must apply for approval of a new
activation.31 An operator that undergoes a change
that results in a new corporate entity must also
apply for approval of a new activation.32
The regulations explain the process for
deactivating an FTZ. Deactivation is defined as the
"voluntary discontinuation of the activation of an
entire zone or subzone by the grantee or operator."33
The grantee or operator must apply in writing to
deactivate the zone, which Customs will not do
unless all merchandise has been removed from the
zone at the risk and expense of the operator.34 The
operator must submit a blueprint of the exact site to

30 Id.

§ 146.6(e); FTZM § 4.1.

31 19

C.F.R. § 146.1(b) ("If the operator is different, it is an
activation.").
32 FTZM

§ 4.13(a) ("If the zone is a corporation and the change
in ownership does not result in a new corporate entity with a
different corporate charter, the change will be treated as a
name change as described in Section 4.13(b) . . . . If the firm is
a corporation and the change results in a new corporate entity,
a new application for activation shall be made under the
procedures in 19 CFR 146.6 and Section 4.12 FTZM.").
33 19

C.F.R. § 146.1(b).

34 Id.

§ 146.7(b).

A-11
be deactivated, and Customs may require an
accounting of all merchandise in the zone as a
precondition to approving the deactivation.35
Finally, deactivation stands in contrast to the
regulations' concept of suspension—an action that
Customs may impose on an operator for failing to
follow its rules or orders.36 Deactivation represents
a voluntary—and suspension an involuntary—
discontinuation of a zone's activated status.
B
Harris County reasons that Customs' letter
rulings establish that Pasadena-DE ceased to exist
as a result of the mergers in August 2006; that
Subzone 84-N did not have an authorized operator
as of that time; that without an operator, no goods
were properly admitted into the subzone; and that
Pasadena was therefore not tax-exempt. Pasadena
counters that Customs' letters indicate only that
new operator approval was required, not that
Subzone 84-N was deactivated.
Though Customs' 2009 letter ruling required
operator approval, its letters for several years

35 Id.
36 Id.

§ 146.82(a) ("The port director may suspend for cause the
activated status of a zone or zone site . . . ."); see also FTZM §
13.8(a)(2) (Customs may suspend the activation of a zone if the
operator "neglects or refuses to obey any . . . order, rule, or
regulation relating to the operation or administration of a
zone").

A-12
afterward treated Subzone 84-N as activated,
deferring a final decision on deactivation through an
administrative process that did not conclude until
April 2013. In the interim, Customs repeatedly
issued Pasadena monthly extensions to operate
Subzone 84-N, allowed Pasadena's inventory to
enter without paying duties, and supervised
Pasadena's activities.37 None of these activities are
consistent
with
deactivating
Subzone
84N. Customs both determined that Pasadena was a
new operator required to apply for approval and
allowed Pasadena to operate Subzone 84-N for the
review period leading up to that determination.
Harris County's focus on the letter rulings
ignores the bigger picture. After Pasadena-DE
became Pasadena, it both sought approval and,
alternatively, argued that none was necessary.38 In
2009 and again in 2013, Customs advised Pasadena
that new approval was required, but Customs did
not deny Pasadena's application to continue its
operation, took no action to stop Pasadena from
operating the refinery, continued to treat those
operations as allowed by federal law, and did not

37 Pasadena

was audited twice, in March 2010 and July 2013,
for compliance with the federal rules and regulations
governing Subzone 84-N.
38 See

FTZM § 4.13(a) (distinguishing an operator's mere name
change from a change resulting in a new corporate entity
requiring the operator to submit a new application for
activation).

A-13
deactivate Subzone 84-N until August 2013. Until
then, Pasadena continued to operate the refinery as
it always had. Pasadena's inventory enjoyed the
benefits of zone status that entire time. Under the
FTZ regulations, those benefits could not have
continued unless 84-N was activated.39
Harris County argues that if Subzone 84-N
remained activated, Customs would not have
required Pasadena to apply for approval of a new
activation. But if Subzone 84-N was deactivated by
the 2006 mergers, Customs had no need to
deactivate Subzone 84-N in August 2013. Harris
County points to the word voluntary in the definition
of deactivation40 to suggest that the regulations, by
implication,
contemplate
the
involuntary
discontinuance of a zone's activated status, which it
further contends happened here. But Customs did
not deactivate Subzone 84-N—involuntarily or
otherwise—because
it
treated
84-N
as
uninterruptedly activated until August 2013. Before
merchandise may be admitted into a zone, or
manufactured or processed once in a zone, certain

39 See

15 C.F.R. § 400.1(c) ("To the extent zones are 'activated'
. . . [they] are treated for purposes of the tariff laws and
customs entry procedures as being outside the customs
territory of the United States."); FTZM § 4.1 (Customs must
approve activation before merchandise may be admitted with
zone status and enjoy benefits conferred under the Act).
40 19

C.F.R. § 146.1(b) ("'Deactivation' means voluntary
discontinuation of the activation of an entire zone or subzone
by the grantee or operator." (emphasis added)).

A-14
request forms must be submitted to and approved by
Customs.41 Customs approved all of Pasadena's
requests to admit crude oil with zone status and all
of Pasadena's requests to process the admitted crude
oil. In light of this evidence, we conclude that
Customs never implicitly deactivated 84-N, as
Harris County contends.
Harris County's theory of implied involuntary
deactivation also overlooks the concept of
suspension in the FTZ regulations—an express
mechanism by which Customs can involuntarily
discontinue the activation of a zone. Customs may
suspend the activated status of a zone if the operator
fails to comply with any "order, rule, or regulation
relating to the operation or administration of a
zone".42 Harris County argues that Pasadena failed
to comply with the FTZ regulations, but Customs
indisputably never suspended operations in Subzone
84-N. We decline to read into the regulations a third,
unwritten method for discontinuing the activated
status of FTZs.

41 Id.

§ 146.32(a)(1) ("Merchandise may be admitted into a zone
only upon application on a uniquely and sequentially
numbered [Customs] Form 214 . . . ."); id. § 146.52(a) ("Prior to
any action, the operator shall file with the port director an
application . . . on Customs Form 216 for permission to
manipulate, manufacture, exhibit, or destroy merchandise in a
zone.").
42 FTZM

§ 13.8(a)(2).

A-15
The formal procedures of deactivation and
suspension serve the vital purpose of ensuring that
Customs maintains operational control and
supervision of goods entering the United States.43 If
deactivation could occur implicitly or informally,
Customs could not keep clear records of which areas
are within the customs territory of the United States
and which are exempt from duty payments.44
Because the Port did not ask that 84-N be
deactivated until August 2013, and Customs never
suspended it, 84-N remained activated during the
challenged tax years.
Section 4.12(a) of the FTZ Manual further
supports this conclusion by directing that an
existing operator is to remain responsible for an
activated zone until there is a new operator
approved or the zone is suspended or deactivated:
Interim Responsibility of Existing Operator —
The existing Operator remains responsible for
merchandise in zone status and for compliance with
the laws and regulations, under its Operator's bond
until the new Operator is approved and a new bond

43 These

formal procedures also protect operators. For example,
if Customs had not granted Pasadena temporary authority to
operate 84-N and then decided that it was not a new operator,
Pasadena would have had no way to recover the tax benefits it
necessarily would have lost.
44 An

emphasis on recordkeeping is pervasive throughout the
FTZ regulations. See, e.g., FTZM §§ 7.1-7.13 (Operator
Recordkeeping and Reporting Responsibilities).

A-16
is executed. The existing Operator is relieved of
responsibility in the interim only if the zone is
deactivated or activated status is suspended, and all
merchandise in zone status . . . has been removed
from the zone or entered for consumption.
This section evinces a policy of stable transition
if there is ever a proposed change in operators. By
ensuring that a party is responsible for the zone at
all times, Customs is better able to control and
supervise merchandise entering and leaving the
customs territory of the United States, which we
have explained is critical. Section 4.12(a) must apply
to any successor of an existing operator; otherwise,
there would be no responsible party and the risks
associated with implicit deactivation are implicated.
A successor operator's right to operate a zone on a
permanent basis is not a matter of contract;
Customs must approve it. But the successor remains
provisionally responsible until Customs deactivates
or suspends the zone or approves a new application.
Pasadena, as acting operator of Subzone 84-N,
remained responsible for the zone until Customs
reached a final decision on whether approval of a
new operator was required. Once Customs
confirmed that Pasadena was a new operator, and
the Port declined to concur with its application, the
application was not approved, and Subzone 84-N
was
formally
deactivated.
Pasadena's
responsibilities terminated only after deactivation
was approved by Customs and all inventory was
removed at Pasadena's expense. The stable

A-17
transition envisioned by § 4.12(a) was implemented
in this case.
Pasadena's tax-exempt status did not terminate
until Subzone 84-N was deactivated in August 2013.
We reverse the court of appeals' judgment and
render judgment for petitioner.
/s/ Nathan L. Hecht
Nathan L. Hecht
Chief Justice
Opinion delivered: February 28, 2020

A-18

COURT OF APPEALS OF TEXAS
FIRST DISTRICT, HOUSTON
NO. 01-16-00389-CV
HARRIS COUNTY, Appellant,
v.
HARRIS COUNTY APPRAISAL DISTRICT and
PRSI TRADING LLC, Appellees.
On appeal from the 334th District Court,
Harris County, Texas.
No. 2013-61450
Issued: June 22, 2017
579 S.W.3d 77
Panel consists of Justices KEYES, HIGLEY, and
LLOYD. Justice KEYES, dissenting.
Opinion by Justice LLOYD.
OPINION
This is an appeal of the trial court's judgment on
a petition for judicial review of an order of Harris
County Appraisal District's ("HCAD") Appraisal
Review Board denying Harris County's challenge to
the granting of a property tax exemption on certain

A-19
inventory owned by PRSI Trading, LLC ("PRSI").1
Harris County contends that the trial court erred in
denying its motion for summary judgment and
granting PRSI's and HCAD's cross-motions for
summary judgment because PRSI's inventory is not
exempt from ad valorem taxation under applicable
federal law. We reverse and render.
Background
A. Foreign Trade Zones
Foreign trade zones ("FTZs") are areas under the
supervision of United States Customs and Border
Protection ("CBP") that are considered outside the
customs territory of the United States for purposes
of payment of customs duties. See 75th Annual
Report of Foreign Trade Zones Board to the
Congress of the United States. Authority for
establishing these areas is granted to the Foreign
Trade Zones Board ("FTZ Board") pursuant to the
Foreign Trade Zones Act of 1934 ("the Act") and the
FTZ Board's regulations. See 19 U.S.C. § 81a-u
(2012); 15 C.F.R. § 400.3 (2017). The FTZ Board also
has the authority to approve "subzones," which are
special purpose zones established as part of a zone
project for a limited purpose that cannot be
accommodated within an existing zone, and that
enjoy the same status as goods held in an FTZ. See

1 See

TEX. TAX CODE ANN. § 42.031 (West 2015).

A-20
15 C.F.R. § 400.3(a)(2) (2017), 19 C.F.R. § 146.1(b)
(2016).
Putting a zone into operation is a two-stage
process. See FOREIGN TRADE ZONES MANUAL, at ¶ 4.1
(2011). First, the FTZ Board must approve a grant
to establish, operate, and maintain the zone. Id.
Second, CBP must approve activation to allow
merchandise to be admitted to the zone in zone
status. Id. In order for the zone to be activated, the
operator of the zone must obtain approval of the
grantee, in this case, the Port of Houston and the
port director. 19 C.F.R. § 146.6(e) (2016).
Under a 1983 amendment to the Act, goods held
in an FTZ for export out of the United States are
exempt from state and local ad valorem taxation. See
19 U.S.C. § 81o(e) (2012). This exemption is
commonly
referred
to
as
an
"FTZ
exemption." Under Texas Tax Code section 11.12,
"[p]roperty exempt from ad valorem taxation by
federal law is exempt from taxation." TEX. TAX CODE
ANN. § 11.12 (West 2015).
B. Factual and Procedural History
In 1995, the FTZ Board created Subzone 84-N in
favor of its original operator, Crown Central
Petroleum Corporation ("Crown"). Subzone 84-N
covers the refinery located at 111 Red Bluff Road
and 1200 Red Bluff Road, in Pasadena, Texas.
Crown entered into an agreement with Harris
County, insuring that the county would not oppose
the subzone.

A-21
In 2004, the refinery was sold to Pasadena
Refining System, Inc., a Delaware corporation
("PRSI(DE)"). At the time it purchased the refinery,
PRSI(DE) was a wholly owned subsidiary of Astra
Refining System, Inc. which was a wholly owned
subsidiary of Astra Holding USA. Astra Holding
USA, Inc., in turn, was a wholly owned subsidiary of
Astra Oil Trading NV.
On January 21, 2005, PRSI(DE) entered into an
agreement with the Port of Houston, the grantee of
Subzone 84-N, authorizing PRSI(DE) to operate
Subzone 84-N for the manufacturing, blending, and
storage of petrochemicals and other related products
at the refinery. On February 4, 2005, PRSI(DE)
requested that CBP approve it as a new operator of
Subzone 84-N, subject to the concurrence of the Port
of Houston. The Port of Houston concurred with
PRSI(DE)'s request and, on February 20, 2005, CBP
approved PRSI(DE) as the new operator of Subzone
84-N. Harris County did not know of nor approve of
this new operator designation.
In August 2006, PRSI(DE) was merged into its
parent, Astra Refining System, Inc. which was
simultaneously merged into its parent, Astra
Holding USA, Inc. Astra Holding USA, Inc.
subsequently changed its name to Pasadena
Refining System, Inc., a Connecticut corporation
("PRSI(CT)").
In late August 2006, PRSI(CT) submitted an
application to CBP asking that it approve PRSI(CT)
as a new operator of the FTZ. In a letter dated
February 15, 2008, CBP advised PRSI(CT) that it

A-22
needed to obtain a letter of concurrence from the
Port of Houston for approval to be granted. CBP did
not approve PRSI(CT)'s application.
On April 7, 2008, PRSI(CT) filed a statement
with CBP changing its position and asserting that it
was not a new operator of Subzone 84-N and that it
did not require an activation pursuant to 19 C.F.R.
§ 146.6.2 On April 29, 2008, the Port of Houston
advised CBP that if it required a letter of
concurrence from the Port of Houston, then the Port
of Houston would first need a "letter of nonobjection" from Harris County, and it had not yet
received such a letter.3 Despite this uncertainty over
the zone, PRSI requested, and CBP granted, PRSI
month-to-month extensions of time to operate
Subzone 84-N between April 18, 2008 and March 27,
2013.

2 PRSI(CT)

argued that it should not be considered a new
operator as a result of its merger and creation from PRSI(DE)
because the assets, liabilities, and the officers were the same,
and the ultimate parent remained the same. It further argued
that Astra Oil Trading NV's sale of half of its shares in
PRSI(CT) to Petrobas America Inc. did not result in assets
being transferred, and that the sale of stock did not necessitate
an application for activation.
3 Effective

July 1, 2006, the Port of Houston implemented a new
policy under which it would not concur in CBP's approval of a
new operator unless it received a letter of non-objection from
Harris County. Such a letter has not been forthcoming for this
FTZ.

A-23
However, on September 21, 2009, CBP issued a
letter ruling in which it held that
Pasadena Refining DE, the operator of Subzone
84-N, ceased to exist on August 29, 2006, and
Pasadena Refining CT is a new entity for purposes
of determining whether it is a new zone operator.
Therefore, in Pasadena Refining CT's application for
approval of what must be an activation, Pasadena
Refining CT must provide a letter of concurrence
from the [Port of] Houston Authority, the zone
grantee, before CBP will approve the activation.
On May 5, 2010, PRSI(CT) requested that CBP
reconsider its determination. As it had done in its
original request for approval, PRSI(CT) argued in its
request for reconsideration that, as a result of the
merger, it had succeeded, as a matter of state law, to
the operator status of PRSI(DE) and could not be a
new operator.
On April 12, 2013, CBP issued a second letter
ruling, reaffirming its holding:
The CBP Regulations and the [Foreign Trade
Zone Manual] require that new FTZ operators be
approved prior to operating a zone. . . . [S]ince
Pasadena DE ceased to exist, CBP's approval to
operate the FTZ also ceased. Pasadena CT[,]
therefore, must be a new operator. This new
operator must apply for approval to operate the FTZ.
On May 6, 2013, the Port of Houston notified
CBP that it continued to decline to approve of
PRSI(CT) as a new subzone operator, and it

A-24
requested deactivation of Subzone 84-N. On August
23, 2013, CBP formally deactivated Subzone 84-N.
In its renditions to HCAD, PRSI claimed
exemption from ad valorem taxation of the inventory
within Subzone 84-N, including taxes assessed by
Harris County. HCAD has continued to grant the
FTZ exemptions to PRSI each year since 2006.
On May 30, 2013, Harris County filed a petition
with the Harris County Appraisal Review Board
("ARB") challenging HCAD's grant of FTZ
exemptions to PRSI and seeking back-appraisal for
HCAD accounts numbered 1041489, 1044919,
2010581, and 2010582, for tax years 2006 to 2013.
On September 16, 2013, the ARB denied Harris
County's challenge.
On October 11, 2013, Harris County filed its
original petition for review seeking judicial review of
the ARB's order pursuant to Tax Code section
42.031. PRSI and HCAD answered on November 8
and 15, 2013, respectively. The case was removed to
federal court on November 20, 2013, and then
remanded on June 12, 2015. The parties filed crossmotions for summary judgment.
On April 20, 2016, the trial court granted PRSI's
and HCAD's motions for summary judgment and
denied Harris County's motion for summary
judgment. Harris County timely filed its notice of
appeal.
Discussion

A-25
On appeal, Harris County contends that the trial
court erred in denying its motion for summary
judgment and granting PRSI's and HCAD's crossmotions for summary judgment. Harris County
argues that there has been no authorized operator of
Subzone 84-N since 2006 and that, without an
authorized operator, no goods could have been
properly admitted into the subzone pursuant to
applicable federal regulations. Thus, it argues, PRSI
is not entitled to the FTZ exemption.
PRSI and HCAD contend that the trial court
properly granted summary judgment in their favor
and denied Harris County's motion. PRSI argues
that the FTZ exemption was available to its
inventory during the relevant tax years based on the
continued active status of 84-N, CBP's approval of
PRSI(CT) to operate 84-N on a month-to-month
basis, and CBP's allowing the inventory to be
admitted to Subzone 84-N. HCAD asserts that it
correctly applied Texas law in exempting from ad
valorem taxation PRSI's property based on its
exemption from federal taxation.
A. Standard of Review
Summary judgment is a question of law.
Provident Life & Accident Ins. Co. v. Knott, 128
S.W.3d 211, 216 (Tex. 2003). Thus, we review a trial
court's grant of summary judgment de novo. Nall v.
Plunkett, 404 S.W.3d 552, 555 (Tex. 2013). In a
traditional motion for summary judgment, the
movant must establish that no genuine issue of
material fact exists and the movant is thus entitled

A-26
to judgment as a matter of law. TEX. R. CIV. P.
166a(c). When, as here, both parties move for
summary judgment and one motion is granted and
one denied, we must determine all questions
presented and render the judgment that the trial
court should have rendered. See Argonaut Ins. Co v.
Baker, 87 S.W.3d 526, 529 (Tex. 2002).
Exemptions from taxation are not favored by the
law. "Statutory exemptions from taxation are
subject to strict construction since they are the
antithesis of equality and uniformity and because
they place a greater burden on other taxpaying
businesses and individuals." Bullock v. Nat'l
Bancshares Corp., 584 S.W.2d 268, 271-72 (Tex.
1979). "An exemption cannot be raised by
implication, but must affirmatively appear, and all
doubts are resolved in favor of [the] taxing authority
and against the claimant." Id. at 272. "Simply
stated, the burden of proof is on the claimant to
clearly show that it comes within the statutory
exemption." Id.
B. FTZ Exemption
The FTZ exemption provides that "[t]angible
personal property" which is "held in a zone" for
certain enumerated purposes "shall be exempt from
State and local ad valorem taxation." 19 U.S.C. §
81o(e). The FTZ Board, which has rulemaking
authority governing the use and operation of FTZs,
has made clear that property must be "admitted"
into a zone to be entitled to ad valorem tax
exemption: "Foreign merchandise (tangible personal

A-27
property) admitted to a zone and domestic
merchandise held in a zone for exportation are
exempt from certain state and local ad valorem taxes
. . . . Articles admitted into zones for purposes not
specified in the Act shall be subject to the tariff laws
and regular entry procedures, including the
payment of applicable duties, taxes, and fees." 15
C.F.R. § 400.1(c) (2017).
"Admit" means to bring merchandise into a zone
with zone status. 19 C.F.R. § 146.1(b). Merchandise
may only be admitted into a zone or subzone that has
been "activated." Id. "Activation" means approval by
the grantee4 and port director5 for operations6 and
for the admission and handling of merchandize in
zone status. See id. at (a). "Upon the port director's
approval of the application and acceptance of the
executed bond, the zone or zone site will be
considered activated; and merchandise may be
admitted into the zone." Id. § 146.6(e). Only after the
approval of activation will Users gain the benefits

4A

"grantee" is a public or private corporation to which the
privilege of establishing, operating, or maintaining a zone
project has been given. See FOREIGN TRADE ZONES MANUAL, at
¶ 2.3(a).
5 The

"port director" is the local representative of the FTZ
Board. Id. at 2.2(e)(2).
6 An

"operator" is a corporation, partnership, or person that
operates a FTZ or FTZ subzone under the terms of an
agreement with the grantee. Id. at 2.3(b).

A-28
conferred under the FTZ Act. See FOREIGN TRADE
ZONES MANUAL, at ¶ 4.1.
In the event that a new entity wishes to take over
as operator of an existing subzone, it must apply for
and obtain the concurrence of the zone grantee and
approval of a new activation. "A grantee of an
activated zone site shall make written application to
the port director for approval of a new operator." 19
C.F.R. § 146.7(e) (2016). Section 146.1(b) provides
that "[i]f the operator is different, [the action] is an
activation." 19 C.F.R. § 146.1(b). If an operator is a
corporation and a "change results in a new corporate
entity, a new application for activation shall be
made under the procedures in 19 C.F.R. § 146.6 and
section 4.12 FTZM." FOREIGN TRADE ZONES MANUAL,
at ¶ 4.13(a).
C. Was Subzone 84-N Activated During the Tax
Years in Question?
Harris County contends that PRSI(CT) never
complied with the federal regulations governing
FTZs and therefore never obtained the authority to
operate Subzone 84-N because it did not obtain
approval as a new operator, which was necessary to
activate the subzone. It argues that, without
"activation," none of PRSI(CT)'s inventory in
question could have properly been admitted and
subject to the FTZ exemption.
PRSI(CT) contends that Harris County conflates
the process for approving a new operator with the
process for activating an FTZ. It argues that
although it is true that an operator must be

A-29
approved before activation occurs, a change in
operator does not result in a loss of activation.
PRSI(CT) further asserts that the FTZ exemption
was available to its inventory during the tax years
in question based on the continued active status of
84-N, and CBP's grant to PRSI of month-to-month
extensions of time to operate Subzone 84-N between
April 18, 2008 to March 27, 2013.
However, the resolution of this issue is governed
by federal regulations and the rulings of the relevant
federal authority. In its September 21, 2009 letter,
CBP stated:
A foreign trade zone or subzone . . . has
an activated status, or has had its
"activation approved, if the zone
grantee and the CBP port director
approve the operation of the zone . . . .
If the operator of a zone is about to be
changed, then there must be an
application for approval of activation of
the zone. . . . When a zone is operated
by a corporation, and a change in the
operator corporation "results in a new
corporate entity, a new application for
activation shall be made" pursuant to
C.F.R. § 146.6.
....
Pasadena Refining CT was a new legal
entity, which differed from the operator
at the time of the 2005 activation of
Subzone 84-N. Either the zone operator
or the grantee should have applied for

A-30
activation prior to the termination of
Pasadena Refining DE.
....
Pasadena Refining CT is a new entity
for purposes of determining whether it
is a new zone operator. Therefore, in
Pasadena Refining CT's application for
approval of what must be activation,
Pasadena Refining CT must provide a
letter of concurrence from the [Port of]
Houston Authority, the zone grantee,
before CBP will approve the activation.
In its April 12, 2013 letter ruling, CBP reiterated
its position and addressed PRSI(CT)'s position that
PRSI(DE)'s right to operate the FTZ vested in
PRSI(CT), the surviving corporation:
Operation of an FTZ is a privilege not a
right. Moreover, CBP does not permit
the sale or transfer of the FTZ operator
status between entities. The CBP
Regulations and the FTZM require
that new FTZ operators be approved
prior to operating a zone. . . . As
explained above, since Pasadena DE
ceased to exist, CBP's approval to
operate the FTZ also ceased. Pasadena
CT therefore, must be a new operator.
This new operator must apply for
approval to operate the FTZ.
(Emphasis added).

A-31
In light of CBP's holdings in its letter rulings, we
find PRSI's interpretation of the applicable
regulations untenable. PRSI(CT) was aware that
CBP—the
federal
agency
charged
with
administration of laws and regulations concerning
the operation of FTZs and subzones—held that
PRSI(CT) was a new operator and, as such, was
required to submit a new application for activation
pursuant to 19 C.F.R. § 146.6. There is nothing in
the record showing that PRSI(CT) ever obtained
approval to operate Subzone 84-N.
PRSI(CT) argues that it was still activated
during the relevant tax years because CBP did not
deactivate it until August 23, 2013.7 However, if
Subzone 84-N was still activated, as PRSI(CT)
contends, then CBP would not have required
PRSI(CT) to apply for approval of a new activation.
7 The

dissent interprets the FTZ Manual to the effect that a free
trade zone continues to exist until it is "deactivated." However,
the activation of an FTZ is neither a grant of eternal life nor a
sentence of perpetual involuntary servitude. The relevant
federal
regulation
which
authoritatively
addresses
"deactivation" is 19 C.F.R. § 146.7. That section is entitled
"Zone Changes" and provides a mechanism for an operator to
make "alterations of an activated area." 19 C.F.R. § 146.7(a).
Alteration of "an activated" area includes the ability of the
operator to cease business in, or deactivate, the zone. See id.
(b). There are requirements for deactivation, such as removing
merchandise from the area, and the deactivation must be
finally approved by the port director. See id. This section
address the steps that the operator must take to walk away
from an active zone. It does not change the requirements for
the creation, and continued existence, of an active zone.

A-32
Moreover, we note that PRSI(CT)'s position
contradicts other evidence in the record. As an
exhibit to its response to PRSI's and HCAD's crossmotions for summary judgment and its reply to their
responses to Harris County's motion for summary
judgment, Harris County attached the affidavit of
Shane M. Williams, the FTZ administrator for the
Port of Houston. In paragraph nine of his affidavit,
Williams states, "On February 8, 2010, the Port
Authority acknowledged to CBP the deactivation of
subzone 84-N, in the absence of an authorized
subzone operator, and confirmed that it continued to
decline to concur with Pasadena Refining CT's
activation request."
PRSI also argues that CBP's temporary
authorization of PRSI(CT)'s operation on a monthto-month basis is evidence that the subzone was
"activated" during the applicable tax years.8 These
letters from CBP to PRSI(CT) granting an extension
to operate, or a continuation to operate, Subzone 84N are not evidence that the subzone was "activated,"
nor do they purport to "activate" the subzone during
this period as required by federal regulations. CBP
consistently declined to "activate" the subzone

8 Next

to the portion of its summary judgment order granting
PRSI's and HCAD's motions, the trial court made the following
handwritten notation "See, e.g., Mattson affidavit at ¶15 and
Exhibits 7 and 8 attached thereto." This evidence refers to
CBP's letters granting PRSI an extension of time to operate
Subzone 84-N.

A-33
absent written consent of the grantee, i.e., the Port
of Houston. See 19 C.F.R. § 146.6(b)(5).
Without activation of Subzone 84-N pursuant to
approval of a new operator, PRSI's inventory could
not have been properly admitted into the subzone,
and, thus, was not entitled to exemption from ad
valorem taxation. See 15 C.F.R. § 400.1(c); 19 C.F.R.
§§ 146.1(b), 146.6(e); see also FOREIGN TRADE ZONES
MANUAL, at ¶ 4.1 ("Only after the approval of
activation will Users gain the benefits conferred
under the [Foreign Trade Zones] Act.")
D. Are CBP's Letter Rulings Entitled to
Preclusive Effect Under the Doctrine of
Collateral Estoppel?
Harris County also contends that CBP's letter
rulings are entitled to preclusive effect under the
doctrine of collateral estoppel. PRSI argues that
CBP's decision requiring activation of the FTZ does
not resolve the issue before us because Harris
County has not satisfied all of the requirements of
collateral estoppel.
Collateral estoppel, or issue preclusion,
"prevents relitigation of particular issues already
resolved in a prior suit." Barr v. Resolution Trust
Corp., 837 S.W.2d 627, 628 (Tex. 1992). It is
designed to promote judicial efficiency, protect
parties from multiple lawsuits, and prevent
inconsistent judgments
by precluding the
relitigation of issues. Sysco Food Servs., Inc. v.
Trapnell, 890 S.W.2d 796, 801 (Tex. 1994).

A-34
To establish collateral estoppel, a party must
show that "(1) the facts sought to be litigated in the
second action were fully and fairly litigated in the
first action; (2) those facts were essential to the
judgment in the first action; and (3) the parties were
cast as adversaries in the first action." Id. Collateral
estoppel applies to administrative agency orders
"when the agency is 'acting in a judicial capacity and
resolves disputed issues of fact properly before it
which the parties have had an adequate opportunity
to litigate.'" Turnage v. JPI Multifamily, Inc., 64
S.W.3d 614, 620 (Tex. App.—Houston [1st Dist.]
2001, no pet.) (quoting Muckelroy v. Richardson
Indep. Sch. Dist., 884 S.W.2d 825, 830 (Tex. App.—
Dallas 1994, writ denied)); see also B&B Hardware,
Inc. v. Hargis Indus., Inc.,
U.S. , , 135 S. Ct.
1293, 1303, 191 L.Ed.2d 222 (2015) ("[W]here a
single issue is before a court and an administrative
agency, preclusion [] often applies."). Further,
"collateral estoppel requires that the issue decided
in the first action be identical to the issue in the
pending action." Union Pac. R. Co. v. Ameriton
Properties Inc., 448 S.W.3d 671, 682 (Tex. App.—
Houston [1st Dist.] 2014, pet. denied) (citing Mann
v. Old Republic Nat'l Title Ins. Co., 975 S.W.2d 347,
350 (Tex. App.—Houston [14th Dist.] 1998, no pet.).
PRSI first argues that CBP's letter rulings
addressed only whether PRSI(CT) was a new
operator and not whether PRSI(CT) was entitled to
an FTZ exemption. Thus, it claims, the issue decided
by CBP is not identical to the issue in this case.
However, CBP's September 21, 2009 letter ruling,

A-35
and its August 12, 2013 letter ruling affirming its
holding, resolved the issue of whether PRSI(CT) was
a new operator and whether a new activation was
required. In the case before us, the issue is whether
Subzone 84-N had an authorized operator during the
relevant tax years and whether the subzone was
activated, thereby authorizing an FTZ tax
exemption. PRSI's failure to obtain an FTZ
exemption flows from application of federal
regulations by the relevant federal authority as
memorialized in the CBP letter rulings. See 15
C.F.R. § 400.1(c); 19 C.F.R. §§ 146.1(b), 146.6(e). The
issue ruled on by CBP is identical to the issue before
us.
PRSI next argues that CBP's decision was not the
product of a judicial proceeding because there was
no judge, witnesses or other sworn evidence, right of
discovery, or hearing. However, we are unaware of
any authority—nor does PRSI direct us to any—
holding that an administrative agency's proceedings
must take a particular form in order for the agency
to be acting in a judicial capacity. See Alten v. Ellin
& Tucker, Chartered, 854 F. Supp. 283, 291 (D. Del.
1994) ("[W]hether an administrative agency was
'acting in a judicial capacity' is not solely determined
by whether the administrative agency used such
judicial procedures as 'the ability to call, examine,
cross-examine, and subpoena witnesses.") (citing A.
Duda & Sons Coop. Assoc. v. United States, 495 F.2d
193, withdrawn, 504 F.2d 970 (5th Cir. 1974)). Here,
CBP issued two letter rulings, widely separated in
time, which consistently set forth the relevant facts,

A-36
applicable law, the issue before it, its legal analysis,
and its holding. PRSI also had the opportunity to
seek judicial review of CBP's rulings in the Court of
International Trade but did not do so. See Conoco,
Inc. v. U.S. Foreign-Trade Zones Board, 18 F.3d
1581, 1590 (Fed. Cir. 1994); B&B Hardware, 135 S.
Ct. at 1310, (noting Congress's provision of judicial
review of Patent and Trademark Office registration
rulings in deciding that "registration decisions can
be weighty enough to ground issue preclusion"). We
conclude that CBP acted in a judicial capacity in
issuing its letter rulings.
PRSI also contends that CBP never addressed
the FTZ tax exemption issue and, therefore, it was
not essential to CBP's decision. See Trapnell, 890
S.W.2d at 801 (noting that, to establish collateral
estoppel, party must establish that facts sought to
be litigated in second action were essential to
judgment in first action). However, as discussed
above, the issue presented in this case is not the FTZ
tax exemption; rather, it is whether Subzone 84-N
was activated during the relevant tax years thereby
authorizing a tax exemption. The facts underlying
this issue are precisely the facts that CBP
considered in its opinions and that were essential to
its letter rulings.
Finally, PRSI contends that collateral estoppel is
inapplicable in this case because Harris County was
not a party to CBP's proceedings. Strict mutuality of
parties is not required for collateral estoppel. See
Sysco Food, 890 S.W.2d at 801. Instead, it is only
necessary that the party against whom the doctrine

A-37
is asserted (i.e., PRSI) was a party or in privity with
a party in the first action. Id.
We conclude that the summary judgment
evidence demonstrates, as a matter of law, that the
FTZ tax exemption does not apply to PRSI's
inventory during the applicable tax years. See
Bullock, 584 S.W.2d at 272 ("An exemption cannot
be raised by implication, but must affirmatively
appear, and all doubts are resolved in favor of [the]
taxing authority and against the claimant.")
Therefore, PRSI and HCAD were not entitled to
summary judgment. Because we also conclude that
the FTZ exemption does not apply to PRSI's
inventory, Harris County was entitled to summary
judgment. Accordingly, we sustain Harris County's
issue.
Conclusion
We reverse the trial court's April 20, 2016 order
granting summary judgment to PRSI and HCAD
and denying Harris County's motion for summary
judgment, and we render judgment in favor of
Harris County.
/s/ Russell Lloyd
Russell Lloyd
Justice
DISSENTING OPINION
This is an important tax case of first impression
regarding the ability of a local county taxing

A-38
authority to levy ad valorem taxes on inventory in a
federally
authorized
Foreign
Trade
Zone
("FTZ"). The majority ignores the governing law set
out in the Code of Federal Regulations ("CFR") and
the Foreign-Trade Zone Manual ("FTZ Manual"),1
the contract governing the operation of the FTZ, and
all of the evidence indicating that the correct
regulations were followed and the correct taxes were
assessed at the relevant times. Instead, the majority
reverses the judgment of the district court and the
order of appellee Harris County Appraisal District's
("HCAD's") own county taxing authority, holding
that the inventory in the relevant zone—Port of
Houston Subzone 84-N—was admitted to an active
zone and thus was exempt from the assessment of
county ad valorem taxes for the relevant tax years
(2011-2013).
The federal Foreign Trade Zones Act, as
embodied in the federal CFRs and the federal FTZ
Manual, sets out the scheme by which FTZs are
governed. Essentially, the Foreign-Trade Zones
Board ("FTZ Board") has authority to designate
FTZs and subzones, which are special-purpose zones
established within existing zones. The zones are
supervised by Customs and Border Protection
("CBP"). The FTZ Board first approves a grant to a

1 As

stated in its foreword, "The purpose of the [FTZ Manual]
is to place in one document, the various laws, regulations,
policies and procedures that Customs and Border Protection
personnel, grantees, operators and users need to know in the
daily operation of Foreign Trade Zones." FTZ Manual at 2.

A-39
grantee to establish, operate, and maintain a zone,
and CBP then approves the activation of the zone to
allow merchandise to be admitted to the zone. At
that point, an operator—defined as a corporation,
partnership, or person that operates a zone or
subzone under the terms of an agreement with the
zone grantee—or the grantee may operate the zone
by, among other acts or responsibilities, admitting,
transferring, and removing merchandise from the
zone. See 19 C.F.R. § 146.1(b); id. § 146.4.
Relevant here, the Foreign-Trade Zones Act
provides that goods held in an active FTZ for export
out of the United States are exempt from state and
local ad valorem taxation. See 19 U.S.C. § 81o(e); see
also TEX. TAX CODE ANN. § 11.12 (West 2016)
(providing that property exempt from ad valorem
taxation by federal law is exempt from taxation).
In the present case, appellee PRSI Trading, LLC,
acting through predecessor entities, served as the
operator of a subzone, Subzone 84-N. On January
21, 2005, PRSI Trading's predecessor, Pasadena
Refining System, Inc. DE ("PRSI(DE)") entered into
an agreement with the Port of Houston Authority
(the grantee of Zone No. 84), to serve as the operator
of the already-activated Subzone 84-N ("the 2005
Grantee/Subzone-Operator Agreement"). HCAD
recognized PRSI's entitlement to the exemption
from ad valorem taxation.
Following a series of mergers, another PRSI
entity, Pasadena Refining System, Inc. CT
("PRSI(CT)") applied to become the operator of
Subzone 84-N in place of PRSI(DE). A dispute arose

A-40
among the various parties involved—including CBP,
the Port of Houston Authority, and PRSI(CT)—
regarding PRSI(CT)'s status as operator of the
subzone. While that dispute was being resolved
through various administrative processes, Subzone
84-N remained active and PRSI(CT) continued to
operate it pursuant to the 2005 Grantee/SubzoneOperator Agreement and temporary authorizations
granted by CBP to PRSI(CT) to continue acting as
operator while the dispute was pending.
Consequently, HCAD continued to recognize that
imported crude oil owned by PRSI(CT), held in the
activated and operational FTZ, qualified for the FTZ
tax exemption.
The dispute over PRSI(CT)'s status as operator
was ultimately resolved in April 2013, when CBP
made its final determination that PRSI(CT) must
resubmit an application if it wished to serve as the
operator of Subzone 84-N. Following this
determination, the Port of Houston declined to
approve PRSI(CT) as subzone operator, and it
requested deactivation of Subzone 84-N. On August
23, 2013, CBP formally deactivated Subzone 84-N.
Appellant Harris County then challenged
HCAD's recognition of PRSI(CT)'s ad valorem tax
exemption for the tax years 2011, 2012, and 2013.
HCAD's Appraisal Review Board denied Harris
County's challenge, and Harris County sought
review of the Board's decision in the trial court.2 The

2 See

TEX. TAX CODE ANN. § 42.031 (West 2014).

A-41
trial court likewise denied Harris County's
challenge, upholding the exemption granted to
PRSI(CT) for each of these years under authority of
the CFRs, the FTZ Manual, and the 2005
Grantee/Subzone-Operator
Agreement
and
recognized by HCAD.
The majority in this case on appeal, however,
misapplies and misconstrues the CFRs and the FTZ
Manual and ignores the operative 2005
Grantee/Subzone-Operator Agreement between the
Port of Houston Authority and PRSI and the
determinations of CBP granting PRSI(CT)
temporary authorizations to continue as operator of
the subzone throughout the pendency of the dispute.
The majority now decides to grant Harris County's
challenge to HCAD's failure to collect ad valorem
taxes on the inventory in Subzone 84-N from the
years in which PRSI(CT) operated the subzone
pursuant to temporary authorization from CBP and
the 2005 Grantee/Subzone-Operator Agreement
with the Port of Houston Authority while its status
as operator was in dispute.
I respectfully dissent. I believe the majority
misunderstands the law has it exactly backwards. It
does not properly account for the fact that, during
the entirety of the relevant time, PRSI(CT) was
seeking approval of a change of operator, its
application was under review by CBP, and the
application had not been either granted or finally
denied by ruling of CBP. HCAD never challenged the
exemption from ad valorem taxation of the inventory
admitted to Subzone 84-N granted by CBP for any of

A-42
the years at issue in this litigation (2011-2013), and,
when Harris County subsequently challenged the
exemptions for those years, HCAD's Appraisal
Review Board agreed with HCAD—the county
taxing authority—and with its co-defendant, PRSI
Trading, LLC—not with Harris County. The trial
court also upheld the Appraisal Review Board's
ruling when Harris County brought this suit for
judicial review of that administrative ruling. Harris
County now appeals the trial court's ruling,
contending that the trial court erred in denying its
motion for summary judgment and granting PRSI's
and HCAD's cross-motions for summary judgment
because PRSI's inventory was not exempt from ad
valorem taxation by Harris County for the years
2011-2013 under applicable federal law.
I strongly disagree with the majority's holding
reversing and rendering judgment in favor of Harris
County. I believe that the majority's opinion
establishes legally incorrect and unsustainable
precedent in this Court construing federal law—the
FTZ Act—as permitting the taxation by a county of
merchandise in a FTZ during the period in which a
change of operator is pending and when successive
extensions have been granted by CBP to the
operator to continue to operate the Subzone in the
interim. I would affirm the order of the trial court
granting PRSI's and HCAD's motion for summary
judgment and upholding the exemption.
Background

A-43
Subzone 84-N was created and activated in 1995.
It covers a refinery located in Pasadena, Texas that
was owned in 1995 by the original operator of
Subzone
84-N,
Crown
Central
Petroleum
Corporation. Crown sold the refinery to PRSI(DE) in
2004. At the time it purchased the refinery,
PRSI(DE) was a wholly-owned subsidiary of Astra
Refining System, Inc., which was a wholly-owned
subsidiary of Astra Holding USA. Astra
Holding USA, Inc., in turn, was a wholly-owned
subsidiary of Astra Oil Trading NV.
On January 21, 2005, PRSI(DE) entered into the
2005 Grantee/Subzone-Operator Agreement to
operate Subzone 84-N for the manufacturing,
blending, and storage of petrochemicals and other
related
products
at
the
refinery.
The
Grantee/Subzone-Operator Agreement imposed a
number of duties on PRSI(DE) as subzone operator
and, subsequently, on PRSI(CT) as the temporary
authorized interim subzone operator. PRSI(DE)
agreed, inter alia, to use the activated subzone only
"for the manufacture, blending, and storage of
petrochemicals and other related products"; to pay
the Port of Houston Authority, as grantee, an annual
nonrefundable fee under terms prescribed by the
FTZ Board; "to comply with all U.S. Customs rules
and regulations governing foreign trade zones as
well as all applicable Port of Houston Authority
tariffs"; to "maintain accurate inventory record and
adequate security for zone merchandise in
accordance with all U.S. Customs rules and
regulations"; and to "submit to the grantee written

A-44
monthly activity reports" and all information
required for the Port of Houston's annual report to
the FTZ Board.
Importantly, the
2005
Operator Agreement provided:

Grantee/Subzone-

This agreement shall remain in effect
until one of the following occurs: (1) an
alternate agreement becomes effective,
(2) the subzone operator relinquishes
control of the zone authorized property,
(3) the Port of Houston Authority is
replaced as grantee of U.S. FTZ No. 84,
(4) zone status of the subzone operator
is terminated by the Foreign Trade
Zone Board.
It also provided:
The subzone operator will be
responsible for all activity occurring
within the zone area authorized on its
behalf by the Foreign Trade Zones
Board as it is described in its subzone
application. [PRSI(DE)] shall continue
as subzone operator until its authorized
zone status is terminated by the Foreign
Trade Zones Board or for any reason it
is no longer in control of the authorized
area.
(Emphasis added).
On February 4, 2005, PRSI(DE) requested that
CBP approve it as a new operator of Subzone 84-N,
subject to the concurrence of the grantee, the Port of

A-45
Houston Authority. The Port of Houston Authority
concurred with PRSI(DE)'s request and, on
February 20, 2005, CBP activated Subzone 84-N
with PRSI(DE) as the new operator.
In 2006, a series of mergers occurred giving rise
to the facts underlying this dispute. On August 29,
2006, documents were filed with the Delaware
Secretary of State indicating that PRSI(DE) was
that day merged into Astra Refining System, Inc.,
which, in turn, was merged with and into Astra
Holding, USA, Inc., a Connecticut corporation, and
that Astra Holding USA, Inc.'s name was changed to
PRSI(CT).
On September 1, 2006, PRSI(CT) submitted an
application to CBP asking that it approve the
"change in FTZ operator" for Subzone 84-N from
PRSI(DE) to PRSI(CT).
In a letter dated February 15, 2008, CBP advised
PRSI(CT) that, pursuant to 19 C.F.R. § 146.6,
PRSI(CT) needed to obtain a letter of concurrence
from the Port of Houston for approval to be granted.
The Port of Houston refused to grant the
concurrence and CBP, therefore, did not approve the
application.
On April 7, 2008, PRSI(CT) filed a statement
with the CBP changing its position and asserting
that it was not a new operator of Subzone 84-N and
that it did not require an activation. This statement
presented the issue: "Whether changes to the
corporate structure of the operator of Subzone 84-N
require the operator to apply for zone activation and
obtain a letter of concurrence from the

A-46
Houston Authority,
146.6(b)(5)."

pursuant

to

19

C.F.R.

§

On September 21, 2009, CBP issued a letter
ruling in which it held:
[PRSI(DE)], the operator of Subzone
84-N, ceased to exist on August 29,
2006, and [PRSI(CT)] is a new entity
for purposes of determining whether it
is a new Zone operator. Therefore, in
[PRSI(CT)'s] application for approval of
what must be an activation, [PRSI(CT)]
must provide a letter of concurrence
from [the Port of] Houston Authority,
the zone grantee, before CBP will
approve the activation.
See 19 C.F.R. § 146.7(e) ("A grantee of an
activated zone site shall make written application to
the port director for approval of a new operator[.]");
19 C.F.R. § 146.1(b) (defining "reactivation" as "a
resumption of the activated status of an entire area
that was previously deactivated without any change
in the operator" and providing that "[i]f the operator
is different, [the action] is an activation"); FTZ
MANUAL, section 4.13(a) (providing that if corporate
operator undergoes "change result[ing] in a new
corporate entity, a new application for activation
shall be made under the procedures in 19 C.F.R. §
146.6 and section 4.12 [FTZ Manual].").
The dispute over the status of PRSI(CT)
continued, and PRSI(CT) pursued administrative
review of CBP's September 21, 2009 ruling.
Throughout the period of time during which the

A-47
uncertainty over the status of PRSI(CT) as operator
existed—between April 18, 2008, and March 27,
2013—PRSI(CT) requested, and CBP granted to
PRSI(CT), month-to-month extensions of time to
operate Subzone 84-N. PRSI(CT) continued to
operate the subzone, which remained active,
pursuant to the 2005 Grantee/Subzone-Operator
Agreement. Neither PRSI(CT) nor the Port of
Houston Authority requested formal deactivation of
the subzone, and none of the actions necessary to
deactivate a subzone occurred during the time
PRSI(CT)'s administrative review of CBP's ruling
remained pending. In each of its renditions to HCAD
during this time, PRSI(CT) claimed exemption from
ad valorem taxation of the inventory within Subzone
84-N, including taxes assessed by Harris County.
And HCAD continued to grant the FTZ exemptions
to PRSI(CT) each year.
On April 12, 2013, PRSI(CT)'s administrative
review process ended when CBP issued a final
ruling, reaffirming its holding:
The CBP Regulations and the [FTZ Manual]
require that new FTZ operators be approved prior
to operating a zone. . . . [S]ince [PRSI(DE)] ceased to
exist, CBP's approval to operate the FTZ also ceased.
[PRSI(CT),] therefore, must be a new operator. This
new operator must apply for approval to operate the
FTZ.
On May 6, 2013, the Port of Houston Authority
notified CBP that it declined to approve of PRSI(CT)
as the new subzone operator, and it requested
deactivation of Subzone 84-N. On August 23, 2013,

A-48
CBP formally deactivated Subzone 84-N. Its
inventory was removed, and HCAD accordingly
ceased to recognize the FTZ exemptions.
Harris County, however, took a different position
from CBP, the Port of Houston, and HCAD. On May
30, 2013—before Subzone 84-N had been formally
deactivated—Harris County filed a petition with the
HCAD's Appraisal Review Board challenging
HCAD's grant of FTZ exemptions to PRSI and
seeking back-appraisal for HCAD accounts
numbered 1041489, 1044919, 2010581, and
2010582, for tax years 2011 to 2013. On September
16, 2013, HCAD's Appraisal Review Board denied
Harris County's challenge. Harris County then
sought judicial review from HCAD's Appraisal
Review Board's order. The district court affirmed the
order. The majority reverses that decision and
renders judgment in Harris County's favor. I would
affirm the judgment of the trial court.
Discussion
Harris County argues that there has been no
authorized operator of Subzone 84-N since 2006 and
that, without an authorized operator, no goods could
have been properly admitted into the subzone
pursuant to applicable federal regulations. Thus, it
argues, PRSI was not entitled to the FTZ exemption
and HCAD's Appraisal Review Board and the trial
court improperly granted summary judgment in
favor of PRSI(CT) and HCAD. The majority agrees;
I do not. The terms of the federal Foreign Trade
Zones Act, its attendant regulations contained in the

A-49
CFRs and the FTZ Manual, the operative 2005
Grantee/Subzone-Operator Agreement between the
Port of Houston Authority and PRSI, the ongoing
extensions granted by the federal agency in control
of the FTZ, the CBP, and the conduct of the parties
all undermine Harris County's argument and the
majority's conclusions.
A. Exemption of Merchandise in an FTZ from
Ad Valorem Taxation
The FTZ exemption rule provides that "[t]angible
personal property" which is "held in a zone" for
certain enumerated purposes "shall be exempt from
State and local ad valorem taxation." 19 U.S.C. §
81o(e). Likewise, under CFR section 400.1(c),
governing the use and operation of FTZs, "Foreign
merchandise (tangible personal property) admitted
to a zone and domestic merchandise held in a zone
for exportation are exempt from certain state and
local ad valorem taxes . . . . Articles admitted into
zones for purposes not specified in the Act shall be
subject to the tariff laws and regular entry
procedures, including the payment of applicable
duties, taxes, and fees." 15 C.F.R. § 400.1(c).
"'Admit' means to bring merchandise into a zone
with zone status." 19 C.F.R. § 146.1(b) (providing
that "zone status" means "the status of the
merchandise admitted to a zone, i.e., nonprivileged
foreign, privileged foreign, zone restricted, or
domestic"). Merchandise may only be admitted into
a zone or subzone that has been "activated." Id. In

A-50
turn, "'[a]ctivation' means approval by the grantee3
and port director4 for operations5 and for the
admission and handling of merchandise in zone
status." Id. The CFRs further provide, "Upon the
Port Director's approval of an application for
activation and acceptance of an executed bond, the
zone or zone site will be considered activated; and
merchandise may be admitted to the zone." See id. §
146.6(e). Only after the approval of activation do
users of the zone or zone site gain the benefits
conferred under the FTZ Act. See FTZ MANUAL,
section 4.1.
Here, it is undisputed that Subzone 84-N was
activated on February 20, 2005, with PRSI(DE)
as the operator. It is also undisputed that, on August
29, 2006, PRSI(DE) merged with Astra Refining
System, Inc., which, in turn, merged with Astra
Holding, USA, and that Astra Holding, USA's name
was changed to PRSI(CT). On September 1, 2006,
PRSI(CT) filed a request with CBP for approval of

3A

"grantee" is a public or private corporation to which the
privilege of establishing, operating, or maintaining a zone
project has been given. See FTZ MANUAL, section 2.3(a). Here,
the grantee is the Port of Houston Authority
4 The

"Port Director" is the director of the port of entry in which
an FTZ is located. Here, the FTZ Administrator is the Port of
Houston Authority. 19 C.F.R. § 146.1(b).
5 An

"operator" is a corporation, partnership, or person that
operates a FTZ or FTZ subzone under the terms of an
agreement with the grantee. 19 C.F.R. § 146.1(b).

A-51
the "change in FTZ operator" for Subzone 84-N from
PRSI(DE) to PRSI(CT). PRSI(CT) later changed its
mind, and, on April 7, 2008, it filed a statement
explaining that it was not a new operator and did
not require an activation. By an opinion letter issued
September 21, 2009, the CBP opined that "the
operator at the time of the 2005 activation of
Subzone 84-N, [PRSI(DE)], ceased to exist on August
29, 2006," and it ruled that PRSI(CT) must obtain
the concurrence of the zone grantee (the Port of
Houston) and CBP approval of a new activation.
All of this is undisputed. What is disputed is
whether Subzone 84-N was deactivated on August
29, 2006, when PRSI(DE) ceased to exist. The
question is whether Subzone 84-N, which had been
activated on February 20, 2005, with PRSI(DE) as
operator, was left without an approved operator and
thus was operated by PRSI(CT) without
authorization. This alleged unauthorized operation
would subject all of the inventory in Subzone 84-N
to local ad valorem taxation by HCAD from August
2006 until 2013, when CBP made its final ruling and
Subzone 84-N was formally deactivated.
The majority holds that the operation of Subzone
84-N from August 29, 2006, to April 13, 2013, was
unauthorized and illegal and therefore the inventory
in the subzone during that period was subject to ad
valorem taxation by HCAD. I find the majority's
construction of the law and the governing documents
to be directly contrary to the plain language of the
law and the evidence.

A-52
B. Was Subzone 84-N Activated During the Tax
Years in Question?
At this point in the litigation, no party disputes
the determination of CBP that when a change in
operator occurs the grantee or purported new
operator of the zone or subzone must file a new
application for activation. In its September 21, 2009
letter, CBP stated:
A foreign trade zone or subzone . . . has
an activated status, or has had its
"activation" approved, if the zone
grantee and the CBP port director
approve the operation of the zone . . . .
If the operator of a zone is about to be
changed, then there must be an
application for approval of activation of
the zone. . . . When a zone is operated by
a corporation, and a change in the
operator corporation "results in a new
corporate entity, a new application for
activation shall be made" pursuant to
C.F.R. § 146.6.
(Emphasis added). CBP further opined that
PRSI(CT) was "a new entity for purposes of
determining whether it is a new zone operator," that
it must, therefore, apply for approval of activation as
the new operator, and that PRSI(CT) "must provide
a letter of concurrence from the [Port of] Houston
Authority, the zone grantee, before CBP will
approve the activation"—approval that never came.

A-53
The majority takes this initial opinion by CBP to
be the end of the story and immediately concludes
that Subzone 84-N was deactivated and that
subsequent operation of the subzone was without
authorization and illegal, and, therefore, ad valorem
taxes were payable on the inventory stored in the
subzone. All of this reasoning is contradicted by the
governing law and documents and is incorrect.
Nothing in CBP's September 21, 2009 letter
purports to deactivate Subzone 84-N. Instead,
following the issuance of this letter, PRSI(CT)
pursued administrative review of the September 21,
2009 determination up until April 2013. During that
time, it is undisputed that CBP repeatedly granted
PRSI(CT) temporary authorizations to serve as the
operator of Subzone 84-N in accordance with the
express provisions of the CFR, the FTZ Manual, and
the 2005 Grantee/Subzone-Operator Agreement
between the Port of Houston Authority and
PRSI(DE). Although it could have sought formal
deactivation at any time,6 the grantee, the Port of
Houston Authority, continued to recognize
PRSI(CT) as the subzone's operator, and it
continued to abide by the terms of the 2005
Grantee/Subzone-Operator Agreement up until
April 2013, when CBP issued its final ruling
confirming that PRSI(CT) was a new operator and

6 See

19 C.F.R. § 146.1(b) ("'Deactivation' means voluntary
discontinuation of the activation of an entire zone or subzone
by the grantee or operator.").

A-54
was required to apply for approval to operate
Subzone 84-N.
During all of that time, Subzone 84-N was never
deactivated in accordance with controlling
regulations. On the contrary, the relevant provisions
of the FTZ Manual—which serves to collect in a
single document all of the laws, regulations, and
policies relevant to the daily operations of FTZs—
contemplate the continued activation and operation
of a zone or subzone when there is a change in
operator and approval of the new operator's
application to operate the zone is pending. And that
is exactly what happened here.
With respect to a "New Zone Operator," the FTZ
Manual provides:
It is permissible to change Operators.
In the existing zone operation, the
Grantee sponsor should be careful not
to terminate contractual relationships
until the Port Director has approved a
new
Operator,
background
investigations have been completed,
and an Operator's bond has been
accepted and is in force for an agreed
amount. A contract between the
Grantee and Operator should govern
the relationship between the parties. A
Grantee of an activated zone site shall
make written application to the Port
Director for approval of a new
Operator,
submitting
with
the
application a certification by the new

A-55
Operator that the inventory control
and recordkeeping system meets the
requirements of 19 CFR 146 Subpart B
and a copy of the procedures manual if
different from the previous Operator's
manual. . . . The bond specified in 19
CFR 146.6(d) shall be submitted by the
Operator
before
the
operating
agreement may become effective in
respect to merchandise in zone status.
The Port Director shall promptly notify
the Grantee, in writing, of the approval
or disapproval of the application (19
CFR 146.7(e), (f))[.]
FTZ MANUAL, section 4.12.
The FTZ Manual also provides for the "Interim
Responsibility of Existing Operator" pending
approval of a new Operator and for execution of a
new bond when a change of Operators is sought:
The
existing
Operator
remains
responsible for merchandise in zone
status and for compliance with the laws
and regulations, under its Operator's
bond until the new Operator is
approved and a new bond is executed.
The existing Operator is relieved of
responsibility in the interim only if the
zone is deactivated or activated status
is suspended, and all merchandise in
zone status (except domestic status
merchandise for which no permit is

A-56
required) has been removed from the
zone or entered for consumption.
Id. at § 4.12(a).
Under these regulations, PRSI(CT) as the acting
operator remained responsible for merchandise in
Subzone 84-N until a new operator could be
approved, and the grantee, the Port of Houston
Authority——following the dictates in section 4.12—
was "careful not to terminate contractual
relationships until the Port Director . . . approved a
new Operator." Thus, the 2005 Grantee/SubzoneOperator Agreement continued to govern the
relationship between the parties until the issue of
whether approval of a new operator was required
was finally resolved in the affirmative and a new
operator of Subzone 84-N was approved. No
deactivation or suspension of activation was
initiated and no removal of all merchandise in zone
status occurred to relieve PRSI(CT) of its
responsibilities as operator until August 2013.
The CFRs define "deactivation" as the "voluntary
discontinuation of the activation of an entire zone or
subzone by the grantee or operator." 19 C.F.R. §
146.1(b). And the CFRs set out the process by which
a zone or subzone may be deactivated. Title 19,
section 146.7 of the CFRs requires the "grantee [the
Port of Houston] or an operator [PRSI(CT)] with the
concurrence of [the] grantee, shall make written
application to the port director for deactivation of
zone site." See id. § 146.7(b). When deactivation is
formally sought, the CFR provides, "The port
director shall not approve the application unless all

A-57
merchandise in the site in zone status (other than
domestic status) has been removed at the risk and
expense of the operator." Id. The zone then "may be
reactivated using the above procedure if a sufficient
bond is on file under § 146.6(d)." Id.
Contrary to the majority's assumption that
deactivation of Subzone 84-N occurred in 2006, none
of the steps required for deactivation of Subzone 84N were undertaken in this case prior to April 12,
2013. For this to have happened, under 19 CFR,
section 146.7, PRSI(CT) would have had to initiate
the process of deactivation and it would have had to
remove the merchandise "in zone status"—i.e.,
PRSI(CT)'s stored crude oil benefitting from the
exemption from ad valorem taxes for merchandise
held in an FTZ—at its own expense. That would
have terminated its responsibility to continue to
operate
the
subzone
under
the
2005
Grantee/Subzone-Operator Agreement with the
Port of Houston Authority. But it would also have
left nothing for HCAD to tax as unlawfully held in
Subzone 84-N, as no inventory subject to ad valorem
taxation would have remained in the subzone.
Not only did deactivation not happen, but the
record conclusively manifests what did happen—
namely, PRSI(CT)'s authorized, continued operation
of Subzone 84-N pursuant to letters of temporary
authorization from CBP for the entire time between
the date on which CBP ruled that PRSI(DE) ceased
to exist (August 29, 2006) until the steps required by
19 CFR 146.7 were completed in 2013. In the
interim, PRSI(CT) continued to operate Subzone 84-

A-58
N in full compliance with federal law and
regulations,
the
FTZ Manual,
the
2005
Grantee/Subzone-Operator Agreement for Subzone
84-N, and extensions granted by CBP, the agency in
control of the FTZ.
Thus, all of the requirements set out in the CFRs
and the FTZ Manual were complied with, not only in
accordance with the referenced federal regulations
and the FTZ Manual, but also in accordance with the
"contract between the Grantee and Operator," the
2005 Grantee/Subzone-Operator Agreement, which
section 4.12 of the FTZ Manual instructs "should
govern the relationship between the parties" when a
change of operator is sought "until the Port Director
has approved a new Operator, background
investigations have been completed, and an
Operator's bond has been accepted and is in force for
an agreed amount." FTZ MANUAL, section § 4.12.
The
Grantee/Subzone-Operator
Agreement
entered into on January 21, 2005, between the Port
of Houston Authority as the "grantee" and PRSI(DE)
as the "subzone operator" was clear on PRSI(DE)'s
obligations. First, it provided, in relevant part, that
PRSI(DE) was "responsible for all activity occurring
with the zone area" and that it "shall continue as
subzone operator until its authorized zone status is
terminated by the FTZ Board or for any reason it is
no longer in control of the authorized area." Second,
it provided that the agreement was to remain in
effect until, among other events, "an alternate
agreement
become
effective,"
PRSI(DE)
"relinquish[ed] control of the zone authorized

A-59
property," or the "zone status of the subzone
operator is terminated by the" FTZ Board.
The final determination as to the post-merger
status of PRSI(CT) did not occur until April 12, 2013.
Up until that time, the Port of Houston Authority
continued to abide by the terms of the 2005
Grantee/Subzone-Operator Agreement and CBP
granted PRSI(CT) temporary authorizations to
operate Subzone 84-N. On May 6, 2013, the Port
Authority notified CBP that it declined to seek
approval of PRSI(CT) as a new operator of Subzone
84-N, and on May 8, 2013, CBP notified PRSI(CT).
On August 23, 2013, CBP formally deactivated
Subzone 84-N pursuant to 19 CFR 146.7. The record
reflects that all provisions of the 2005
Grantee/Subzone-Operator
Agreement
were
complied with and that the Agreement was not
terminated until the subzone was deactivated.
The affidavit of Jon Mattson, the FTZ
Administrator for PRSI(CT), is instructive. It
attests, inter alia:
14. Between September 2006 and April 12, 2013,
PRSI(CT)'s status as a new operator was the subject
of administrative review at [CBP]. The issue being
considered by [CBP] was whether PRSI(CT) was in
fact a new operator that required [CBP's] approval.
That issue was not administratively resolved until
April 12, 2013.
15. During this administrative review period,
which is also the period at issue in the lawsuit,
[CBP] recognized, on a temporary basis, PRSI(CT)
as the operator of 84-N, treated that subzone as

A-60
activated, and approved the admission of foreign
sourced crude oil into 84-N, meaning that crude oil
was not subject to federal duties, tariffs or taxes
until it or products produced from that crude oil left
the zone.
16. Attached as Exhibit 7 are true and correct
copies of letters I received from [CBP] from April 18,
2000 until March 27, 2013, in which [CBP] granted
PRSI(CT) approval to operate 84-N on a temporary
basis.
17. Attached as Exhibit 8 are true and correct
copies of forms (214 and 216) filed with [CBP] that
authorized foreign sourced crude oil to be admitted
to 84-N between January 1, 2006 and August 23,
2103[.]
The actions described in Mattson's affidavit and
set out in its attached exhibits were in strict
compliance with the provisions of the 2005
Grantor/Subzone Operator Agreement set forth
above. These actions were also in strict compliance
with the provisions for changing a zone operator set
out in the federal laws and regulations and
summarized in the FTZ Manual at Section 4.12
(New Zone Operator) and Section 4.12(a) (Interim
Responsibility of Existing Operator)—provisions
likewise set forth above.
Because all federal regulations and all applicable
instruments were complied with at all times during
the administrative review period from September
2006 through April 12, 2013—the period for which
Harris County claims HCAD erroneously recognized
PRSI(CT)'s exemption from ad valorem taxes on the

A-61
merchandise in Subzone 84-N—the subzone
remained activated and was operated by PRSI(CT)
with appropriate authorization during that entire
time. Accordingly, the "[t]angible personal property"
that was "held in a zone"—subzone 84-N—for the
enumerated purpose was properly "exempt from
State and local ad valorem taxation." See 19 U.S.C.
§ 81o(e); TEX. TAX CODE ANN. § 11.12. I would hold,
therefore, that HCAD's recognition of PRSI(CT)'s
exemption was proper, and I would affirm the
determinations of both HCAD's Appraisal Review
Board and the trial court. The majority does not.
The majority, however, places great weight on
the affidavit of Shane M. Williams, the FTZ
Administrator for the Port of Houston. In paragraph
nine of his affidavit, Williams states, "On February
8, 2010, the Port Authority acknowledged to CBP
the deactivation of subzone 84-N, in the absence of
an authorized subzone operator, and confirmed that
it continued to decline to concur with [PRSI(CT)'s]
activation request." What the majority fails to note
is
that
Williams's
statement
is
simply
acknowledging the initial ruling of CBP during
negotiations over the future of Subzone 84-N that
continued from 2006 until CBP entered its final
ruling, on April 12, 2013, that PRSI(CT) must apply
as a new operator. Thus, Williams's affidavit does
not nullify any of the facts set out above, the
evidence supporting them, or the construction of the
applicable documents and regulations advanced
herein. Thus it does not undermine the conclusion
that Harris County's appeal seeking judicial review

A-62
of HCAD's Appraisal Review Board's adverse ruling
is without merit.
I can find no legal justification for the majority's
holding in this important tax case of first
impression, which undermines a recognized
exemption from payment of ad valorem
taxes granted to an authorized operator of an active
FTZ as determined by CBP during the pendency of
an administrative review proceeding. I would hold
that CBP has the authority under the
relevant CFRs to grant authorization for the
interim operation of an activated FTZ or Subzone
during the period in which an adverse ruling on the
activation of a new operator is under review prior to
CBP's final ruling. I would further hold that that
authority was properly exercised in this case to
permit the interim operation of Subzone 84-N
between August 29, 2006, and the formal
deactivation of the subzone in August 2013, and that
all requirements of the CFRs, the FTZ Manual, and
the 2005 Grantee/Zone-Operator Agreement were
complied with. Therefore, PRSI(CT) was properly
exempted from ad valorem taxes on the merchandize
held in Subzone 84-N during that period.
Conclusion
I would overrule Harris County's issue, and I
would affirm the trial court's order granting
summary judgment to PRSI and HCAD and denying
Harris County's motion for summary judgment.
/s/ Evelyn V. Keyes

A-63
Evelyn V. Keyes
Justice

A-64

IN THE DISTRICT COURT OF HARRIS
COUNTY, TEXAS
334TH JUDICIAL DISTRICT
NO. 2013-61450
HARRIS COUNTY, Plaintiff,
v.
HARRIS COUNTY APPRAISAL DISTRICT AND
PRSI TRADING, LLC, Defendants.
Entered: April 20, 2016
ORDER
Pending before the Court are cross motions for
summary judgment of Plaintiff Harris County and
Defendants PRSI Trading, LLC and Harris County
Appraisal District (HCAD). The Court, having
considered the motions, responses, and any timely
filed replies, and objections, and having considered
all of the competent summary judgment evidence,
hereby orders as follows:
1. The Motion for Summary Judgment filed by
Plaintiff Harris County is DENIED.
2. The Cross-Motions for Summary Judgment
filed by Defendants HCAD and PRSI Trading, LLC
are GRANTED, and all claims by Plaintiff against

A-65
HCAD and PRSI Trading, LLC are DISMISSED
WITH PREJUDICE. See, e.g., Mattson affidavit at
¶15 and Exhibits 7 and 8 attached thereto.
SIGNED this 20th day of April, 2016.
/s/ Grant Dorfman
JUDGE PRESIDING

A-66

U.S. CUSTOMS AND BORDER PROTECTION
HQ H027423
HEADQUARTERS RULING LETTER
HQ H027423
September 21, 2009
FOR-3-03
OT:RR:CTF:ER H027423 ECD
Terry Estell
Service Port Director
U.S. Customs and Border Protection
2350 N. Sam Houston Pkwy E., Suite 1000
Houston, Texas 77032
RE:
Foreign trade zone and subzone
activation, grantee letter of concurrence, new
corporate entity, 19 C.F.R. § 146.6 and 146.7
Dear Dir. Estell:
This letter is in response to your request for our
opinion on whether Pasadena Refining System, Inc.
(“Pasadena
Refining
CT”),
a
Connecticut
corporation, as a result of two mergers and sale of its
shares of stock, as well as the recent collapse of its
joint venture, should be required to obtain a letter of

A-67
concurrence form the Port of Houston Authority (the
“Port Authority”), pursuant to 19 C.F.R. §
146.6(b)(5). Pasadena Refining is required to obtain
a letter of concurrence, for the reasons explained in
this letter.
FACTS:
Foreign Trade Subzone 84-N (“Subzone 84-N”) is
a refinery foreign trade subzone in Harris County,
Texas, and was first activated on December 11,
1995, with Crown Central Petroleum Corporation
(“Crown”) as the operator of Subzone 84-N. The Port
of Houston Authority (“Houston Authority”), an
autonomous governmental entity authorized by the
Texas legislature, received the foreign trade zone
grant that includes Subzone 84-N. On July 2, 2004,
Astra Oil Company, Inc. acquired Crown’s
petroleum products; however, Crown retained
ownership of the refinery, and remained the
operator of Subzone 84-N. There was no new
activation.
Crown subsequently sold its refinery to Pasadena
Refining System, Inc., which was a Delaware
corporation (“Pasadena Refining DE”) owned by
Astra Oil Company, Inc. Pasadena Refining DE was
incorporated in 2004. Subzone 84-N was activated
on February 20, 2005, with Pasadena Refining DE
as the operator.
On August 29, 2006, documents were filed with
the Secretary of State for the state of Delaware at
11:15 a.m., and those documents indicated that
Pasadena Refining DE was merged with and into
Astra Refining System, Inc., a Delaware

A-68
corporation. On the same day, documents were filed
with the Secretary of State for the state of Delaware
at 11:46 a.m. Astra Refining System, Inc. was
merged with and into Astra Holding, USA, Inc., a
Connecticut corporation that was first registered in
1998. Later that day, at 1:35 p.m., the corporation’s
name, Astra Holding USA, Inc., was changed to
Pasadena Refining System, Inc. (“Pasadena
Refining CT”), and an amendment indicating the
name change was filed with the Secretary of State of
Connecticut. Also on August 29, 2006, Pasadena
Refining System CT filed, with the Bond Desk at
CBP, Customs Form 5106 indicating its new
Internal Revenue Service (“IRS”) Identification
Number, a request to file a new continuous bond,
and a request to terminate its old continuous bond.
Pasadena Refining CT was created as a joint
venture between Astra Oil Trading NV and
Petrobras America Inc. Astra Oil Trading NV and
Petrobras America Inc. each owned fifty percent of
Pasadena Refining CT. On September 1, 2006,
Pasadena Refining CT filed a request with the Port
of Houston that the port approve the “change in FTZ
operator” for Subzone 84-N from Pasadena Refining
DE to Pasadena Refining CT. Pasadena Refining CT
did not include a letter of concurrence from the
Houston Authority. A new continuous bond for
Pasadena Refining CT was executed on September
5, 2006, with an effective date of September 20,
2006. CBP did not approve the application.
On April 7, 2008, Pasadena Refining CT filed a
statement explaining that it was not a new operator

A-69
of Subzone 84-N and it does not require an
activation, pursuant to 19 C.F.R. § 146.6. Pasadena
Refining CT argues that Pasadena Refining CT
should not be considered a new operator, because, as
a result of its merger and creation from Pasadena
Refining DE:
The assets were the same, the liabilities were the
same, the officers were the same, and the ultimate
parent remained the same. For example, the
current and reorganized Pasadena Refining System,
Inc. is still legally obligated under its agreement
with the Port of Houston Authority. Likewise, the
current and reorganized Pasadena Refining System,
Inc. is still responsible to the surety under the bond
required by U.S. Customs and Border Protection
regulations.
Pasadena Refining CT argued that after Astra
Oil Trading NV sold half its shares in Pasadena
Refining CT to Petrobras America Inc., no assets
were transferred; the sale meant that Pasadena
Refining CT had two owners instead of one.
Pasadena Refining CT argued that the sale of stock
did not necessitate an application for activation.
On April 29, 2008, the zone grantee of Subzone
84-N, the Houston Authority, provided a letter on
the activated status of Subzone 84-N, and stated
that if CBP required a letter of concurrence from the
Houston Authority, the Houston Authority would
first need a “letter of non-objection” from Harris
County, and it had not yet received such a letter. If
CBP determined that “no significant changes have
occurred to the operator of Subzone 84-N” and no

A-70
action was required from the Houston Authority,
then the Houston Authority would accept the
decision and would not contest the activated status
of Subzone 84-N.
Around this time, disputes arose between Astra
Oil Trading NV and Petrobras America Inc. that led
to international arbitration, as well as litigation
filed in Federal courts. During the arbitration,
Astra Oil Trading NV asked the international
arbitration panel to validate certain put-option
rights, which would force a sale of Pasadena
Refining CT to Petrobras America Inc. Although
Petrobras America Inc. has indicated that it is
analyzing the arbitrators’ decisions, one U.S. court
has stated that Petrobras America Inc. is the “de
facto owner of Pasadena Refining System, Inc.” See
Astra Oil Trading NV v. PRSI Trading Company LP,
Court No. 08-CV-10467, 2008 U.S. Dist. LEXIS
106194 (S.D.N.Y. December 23, 2008).
CBP notified Pasadena Refining CT that it was
required to obtain a letter of concurrence from the
Houston Authority as part of its application for
approval of activation of Subzone 84-N, but CBP has
extended the time for Pasadena Refining CT to file
the letter, pending advice from CBP Headquarters.
ISSUE:
Whether changes to the corporate structure of
the operator of Subzone 84-N require the operator to
apply for zone activation and obtain a letter of
concurrence from the Houston Authority, pursuant
to 19 C.F.R. § 146.6(b)(5).

A-71
LAW AND ANALYSIS
If the operator of Subzone 84-N is a new operator,
then an application for approval of activation of the
foreign trade subzone should have been filed. A
foreign trade zone or subzone (collectively “zone”)
has an activated status, or has had its “activation”
approved, if the zone grantee and the CBP port
director approve the operation of the zone, and the
admission and handling of merchandise in zone
status. See 19 C.F.R. § 146.1(a). If the operator of a
zone is about to be changed, then there must be an
application for approval of activation of the zone.
See id., and § 146.7(e). If a zone operator applies to
obtain approval of activation of a zone, then a
written letter of concurrence from the zone grantee
must accompany the application. See 19 C.F.R. §
146.6(b)(5).
When a zone is operated by a
corporation, and a change in the operator
corporation “results in a new corporate entity, a new
application for activation shall be made” pursuant to
19 C.F.R. § 146.6. See Foreign-Trade Zones Manual,
Cust. Dir. No. 3210-030, at 40, para. 4.13(a) (August
6, 1991).
Therefore, the question is whether
Pasadena Refining CT is a new operator.
In this case, the operator at the time of the 2005
activation of Subzone 84-N, Pasadena Refining DE,
ceased to exist on August 29, 2006. Legacy Customs
has ruled that a corporation absorbed in a merger
“ceases to exist and its existence is not, in any way
or form, continued in the surviving or resultant
corporation which constitutes a different legal being
altogether.” See HQ 222064 (April 10, 1990). The

A-72
operator had been a Delaware Corporation,
Pasadena Refining DE, which was wholly owned by
Astra Oil Company Inc.
According to the
“Agreement and Plan of Merger of Pasadena
Refining System, Inc., a Delaware Corporation and
Astra Refining System, Inc., a Delaware
Corporation,” Astra Refining System, Inc. was the
“Surviving Corporation,” and Pasadena Refining DE
was the “Merged Corporation,” and the “Surviving
Corporation shall continue its corporate existence
under the laws of the State of Delaware and the
separate existence and corporate organization of the
Merged Corporation shall be terminated and cease.”
Subsequently, Astra Refining System, Inc. was
merged with and into Astra Holding, USA, Inc., a
Connecticut corporation that was first registered in
1998. According to the “Agreement and Plan of
Merger of Astra Refining System Inc., a Delaware
Corporation and Astra Holding USA, Inc., a
Connecticut Corporation,” Astra Holding USA, Inc.
was the “Surviving Corporation” and Astra Refining
System, Inc. was the “Merged Corporation,” and
thus Astra Refining System, Inc. was terminated
and ceased to exist.
Astra Holding USA, Inc., the Surviving
Corporation, subsequently changed its name to
Pasadena Refining System, Inc., by a Certificate of
Amendment filed with the Office of the Secretary of
the State of Connecticut. The amendment listed the
name change as the only amendment, thus the new
Pasadena Refining CT is Astra Holding USA, Inc.

A-73
Before the sale of shares to create the joint
venture between Astra Oil Trading NV and
Petrobras America Inc., and before Astra Oil
Trading NV exercised its put-option, Pasadena
Refining CT was a new legal entity, which differed
from the operator at the time of the 2005 activation
of Subzone 84-N. Either the zone operator or the
grantee should have applied for activation prior to
the termination of Pasadena Refining DE.
Pasadena Refining CT argues that it is not
required to obtain a letter of concurrence from the
grantee, because the “grantee is requesting
approval” of the new zone operator. In general, a
zone grantee filing a request for approval of a new
operator is requesting approval of an activation: the
zone grantee is not required to furnish a letter of
concurrence from itself. See 19 C.F.R. § 146.6(b)(5)
and 146.7(e); see also 19 C.F.R. § 146.1 (“If the
operator is different, it is an activation.”). Pasadena
Refining CT does not dispute that Pasadena
Refining DE was the operator, and the Houston
Authority is the grantee of Subzone 84-N. There is
nothing to indicate that Pasadena Refining CT is the
same entity as the Houston Authority. The Houston
Authority did not file an application for approval of
the change in operator of Subzone 84-N, nor does the
Houston Authority’s April 29, 2008, letter indicate
that it was applying for approval of the change in
operator of Subzone 84-N. The letter from the
Houston Authority indicates only that if Pasadena
Refining CT was a new operator, then the Houston
Authority would have to obtain a non-objection

A-74
letter from Harris County, before the Houston
Authority could provide a letter of concurrence.
Because the grantee of Subzone 84-N is not applying
for approval of the new operator, the applicant is
required to provide a letter of concurrence from the
zone grantee, pursuant to 19 C.F.R. § 146.6(b)(5).
HOLDING:
Pasadena Refining DE, the operator of Subzone
84-N, ceased to exist on August 29, 2006, and
Pasadena Refining CT is a new entity for purposes
of determining whether it is a new zone operator.
Therefore, in Pasadena Refining CT’s application for
approval of what must be an activation, Pasadena
Refining CT must provide a letter of concurrence
from the Houston Authority, the zone grantee,
before CBP will approve the activation.
You are to mail this decision to the Houston
Authority and to Pasadena Refining CT no later
than 60 days from the date of this letter. On that
date, the Office of International Trade will make the
decision available to CBP personnel, and to the
public on the CBP Home Page on the World Wide
Web at www.cbp.gov, by means of the Freedom of
Information Act, and other methods of public
distribution.
Sincerely,
/s/ Myles B. Harmon
Myles B. Harmon, Director
Commercial and Trade Facilitation
Division

A-75

A-76

U.S. CUSTOMS AND BORDER PROTECTION
HQ H105336
HEADQUARTERS RULING LETTER
HQ H105336
April 12, 2013
OT:RR:CTF: ER H105336 RDC
James B. Harris, Esq.
Thompson & Knight, LLP
One Arts Plaza
1722 Routh Street
Suite 1500
Dallas, Texas 75201-2533
Re: Pasadena Refining System, Inc.; Foreign
Trade Subzone 84-N; Request for Reconsideration of
HRL H027423 (September 21, 2009).
Dear Mr. Harris:
This is in response to your May 5, 2010, request
on behalf of your client, Pasadena Refining System,
Inc. organized in Connecticut, (Pasadena CT), that
CBP reconsider its determination in Headquarters

A-77
Ruling Letter (HRL) H027423, issued September 21,
2009. In HRL H027423 we held that Pasadena CT
was a new operator of the foreign trade zone, (FTZ),
because the approved operator, Pasadena Refining
System, Inc. organized in Delaware, (Pasadena DE),
ceased to exist after the mergers described below.
We have reconsidered the matter based on your
Request for Reconsideration dated May 5, 2010, and
your Memorandum dated December 21, 2012.
FACTS:
Pasadena DE was the approved operator of the
relevant FTZ and a wholly owned subsidiary of
Astra Refining System, Inc. (Astra). In 2006,
Pasadena DE was merged into its parent, Astra. At
the same time, Astra was merged into its parent,
Astra Holdings, Inc. (Astra Holdings).
Astra
Holdings was a subsidiary of Astra Oil Trading NV.
Astra Holdings then changed its name to Pasadena
Refining System, Inc., (Pasadena CT), a Connecticut
corporation. In sum, Pasadena DE, and Astra were
merged into Astra Holdings, then Astra Holdings
changed its name. Three days after this merger 50
percent of the stock of Pasadena CT was sold to
Petrobras America Inc. (Petrobras).
After the
merger Pasadena CT obtained a new FTZ bond in its
name and applied to the grantee of the zone to be
approved as a new operator. You say this was not
because Pasadena CT believed such action
necessary, but "out of an abundance of caution."
Request for Reconsideration, May 5, 2010, page 3.
Finally, Pasadena CT obtained a new tax
identification number.

A-78
LAW AND ANALYSIS:
You now argue that under Delaware and
Connecticut law a subsidiary that is merged into its
parent "continues on as part of the parent
corporation" and that Pasadena DE continues to
exist as part of Pasadena CT so that Pasadena CT is
not a new operator. Request for Reconsideration,
May 5, 2010. You claim that CBP is confusing the
"concept that the separate existence of the merged
corporation terminated and ceases as a result of a
merger with the concept that an entity itself
terminates and ceases as a result of a dissolution."
Memorandum, December 12, 2012, page 2. You also
advise that Pasadena DE's pre-merger balance sheet
and Pasadena CT's post-merger balance sheet were
identical, and that "as a result of the mergers, all of
the rights, privileges, powers and franchises
[belonging to Pasadena DE and Astra] . . . were as a
matter of Delaware law vested in Pasadena CT."
Request for Reconsideration, May 5, 2010, page 6.
You contend that Pasadena DE continues to exist as
part of Pasadena CT so that Pasadena CT is not a
new operator.
We disagree that Pasadena DE continues its
existence and that Pasadena CT is not a new
operator. In fact, the Agreement and Plan of Merger
of Astra Refining System, Inc. and Astra Holding
USA, Inc., dated August 29, 2006, states that
Pasadena DE will cease to exist and Astra will
survive the merger. Page 1 of the Agreement and
Plan states that "the Merged Corporation shall be
merged with and into the Surviving Corporation, . .

A-79
. the separate existence of the Merged Corporation
shall cease and the Surviving Corporation shall
survive the merger and continue to exist . . . ." See
also, para. 1.3 (". . . the separate existence and
corporate organization of the Merged Corporation
shall be terminated and cease.") In this case, Astra
was named the surviving entity and therefore the
merger documents demonstrate that Pasadena DE
ceased to exist.
Legacy Customs previously held that “it is settled
law that the corporation absorbed in a merger, or
consolidation ceases to exist and its existence is not,
in any way or form, continued in the surviving or
resultant corporation which constitutes a different
legal being altogether.” See H222064 (Apr. 10, 1990)
and C.S.D. 89-12 (December 15, 1988). You argue
that absent federal law, which takes precedence over
state law, CBP should follow "the law of the state
that governed the merger . . . ." Request for
Modification and Revocation, May 5, 2010 at 6.
However, the matter at issue, operation of an FTZ,
is a federal issue because an FTZ and the authority
to operate it are creatures of federal law, i.e., 19
U.S.C. § 81c. Specifically, we are determining
whether the FTZ operator status can continue after
the operator is merged and ceases to exist.
Consequently, federal law and regulations control.
Moreover, state law is consistent with CBP’s
position, that the merged corporation ceases to exist
as a separate entity. Under both Delaware and
Connecticut law, by statute, the merged

A-80
corporations cease to exist (unless identified as the
surviving corporation - which here was Astra).
Section 259 of the Delaware Code provides:
When any merger or consolidation
shall have become effective under this
chapter, for all purposes of the laws of
this State the separate existence of all
the constituent corporations, or of all
such constituent corporations except
the one into which the other or others
of such constituent corporations have
been merged, as the case may be, shall
cease and the constituent corporations
shall become a new corporation, or be
merged into 1 of such corporations, as
the case may be, possessing all the
rights,
privileges,
powers
and
franchises as well of a public as of a
private nature, and being subject to all
the restrictions, disabilities and duties
of each of such corporations so merged
or consolidated; and all and singular,
the rights, privileges, powers and
franchises of each of said corporations,
. . . ."
8 Del. C. § 259(a) (2012). The Connecticut statute
has similar language and provides:
(a) When a merger becomes effective:
(1) The corporation or other entity that
is designated in the certificate of
merger as the survivor continues or

A-81
comes into existence, as the case may
be;
(2) The separate existence of every
corporation or other entity that is
merged into the survivor ceases;
Conn. Gen. Stat. § 33-820 (2012). Therefore,
Pasadena DE ceased to exist when it was merged
into its parent and hence, the approved FTZ
operator, Pasadena DE, no longer exists.
Accordingly, Pasadena CT must be a new operator.
Further, Delaware courts have held that the
subsumed corporation in a merger ceases to exist
under Delaware law. In Beals v. Washington
International, Inc., (386 A.2d 1156 (Del. Ch. 1978))
the Delaware court interpreted its statute to provide
"a constituent corporation ceases to exist upon
merger . . . . " Id. at 1161. In Beals, Company B was
merged into Company A. The plaintiffs, former
stockholders of Company A, named Company B as a
defendant. The defendants' motion to quash the
service of process on Company B was granted
because the court determined that Company B "no
longer exists and the action cannot be maintained
against it." Id. at 1161. As rationale for its decision,
the Beals Court stated:
In resolving questions centering on
corporate existence or dissolution, it
should be kept in mind that
corporations exist only by legislative
act. International Pulp Equipment v.

A-82
St. Regis Kraft, D.C. Del., 54 F. Supp.
745 (1944). Since by statute, corporate
existence is terminated on the date of
merger, U.S. v. Borden, N.D. Ill., 28 F.
Supp. 177 (1939), a corporation ceases
to exist on merger for all purposes,
including service of process, unless the
legislature provides otherwise. Sevits
v. McKiernan-Terry, S.D.N.Y., 264 F.
Supp. 810 (1966).
Id. Based on Beals, Pasadena DE, regardless of
whatever rights, privileges, powers and franchises
passed to Pasadena CT as a result of the merger,
after the merger Pasadena DE ceased to exist as a
corporate entity. Accordingly, since the approved
operator of the FTZ no longer exists, any entity said
to be operating the zone must be a new operator.
Despite the plain text of the Delaware and
Connecticut law, you assert that:
Section 259(a) of the DGCL [Delaware
General Corporate Law] provides that
in a merger, the subsidiary corporation
combines with, and continues its
existence in, the parent corporation.
Therefore,
the
combined
entity
possesses all the rights, privileges,
powers and franchises, and is subject to
all restrictions, disabilities and duties
of
the
subsidiary
corporation.
Accordingly, under Delaware law,
combining a subsidiary with a parent
results in a continuation of the

A-83
subsidiary corporation through the
parent corporation. This result is a
major distinction between a merger
and a dissolution. In a dissolution, the
subsidiary corporation disappears and
terminates, and its creditors are paid
and the remaining assets are
distributed to the parent corporation.
By contrast, in a merger, the subsidiary
corporation continues on in the parent
corporation, without losing its life.
Request for Reconsideration, May 5, 2010, page
6. However, as explained above, only the surviving
corporation continues, not the corporations that are
merged into it. Thus, your position is inconsistent
with both the text of the Delaware and Connecticut
statutes as well as a ruling by a Delaware court.
Moreover, the two cases you rely upon in your
Memorandum dated December 21, 2012, Sterling v.
Mayflower Hotel Corp., 93 A.2d 107 (1952) and
Argenbright v. Phoenix Fin. Co., 187 A. 124, 126
(Del. Ch. 1936), do not contradict the conclusion that
Pasadena DE ceased to exist after the merger. In
Sterling v. Mayflower Hotel Corp., the court
affirmed the denial of plaintiffs' request for
injunctive relief and found no unfairness or fraud
regarding a planned merger. In Argenbright v.
Phoenix Finance Co., the court sustained the
corporations' demur on the minority shareholders'
action to rescind the sale and distribution of
corporate assets. The court denied the demur on the
minority shareholders' claim for breach of trust

A-84
based upon conversion of the proceeds from the
distribution. Neither of these cases refute the
conclusion that a corporation merged into another
ceases to exist and are inapposite. Accordingly, you
provide no legal basis to alter the determination in
HRL H027423, that Pasadena DE ceased to exist
after it was merged into Astra.
You also contend that HRL H027423 did not
address two key points, i.e., whether there "was a
change in ownership, and did that change in
ownership result in a new corporate entity as
operator." We believe this assertion is a reference to
the CBP Foreign Trade Zone Manual, Publication
number 0000-0559A (2011) (FTZM). The FTZM at
4.13 states:
Change in Ownership of Operator - If
ownership of the operator firm changes
hands through sale or other transfer,
the procedure to be followed depends
on whether the firm is individually
owned, a partnership, or a corporation.
. . . . If the firm is a corporation and the
change in ownership does not result in
a new corporate entity with a different
corporate charter, the change will be
treated as a name change as described
in Section 4.13(b), below, FTZM. If the
firm is a corporation and the change
results in a new corporate entity, a new
application for activation shall be made

A-85
under the procedures in 19 CFR 146.6
and Section 4.12 FTZM.
FTZM 4.13(a).
You contend that the
"reorganization of the subsidies of Astra Oil Trading
NV made no change in the ultimate ownership of the
Operator [Pasadena DE/Pasadena Ct]." Request for
Reconsideration, May 5, 2010. You state that since
Astra Oil Trading NV was the ultimate owner of
Pasadena DE and the resulting corporation,
Pasadena CT, remained a wholly owned subsidiary
of Astra Oil Trading NV, the ownership of Pasadena
DE did not change. You also argue that there was
no change in ownership that resulted from the sale
of half of the stock of Pasadena CT to Petrobras.
However, that section of the FTZM only addresses
when the entity continues to exist but the ownership
changed. After finding, as explained above, that the
approved operator, Pasadena DE, ceased to exist as
a matter of law after the merger, there is no reason
to consider whether there "was there a change in
ownership." The fact that the approved zone
operator no longer existed after the merger obviates
the need to consider whether there was a change in
ownership of the operator.
Moreover, even if we were to consider the
contention that the merger did not result in a change
in ownership, three days after the merger, half of
Pasadena CT was sold to Petrobras, creating a
change in ownership of the corporation you say
should be deemed the FTZ operator. The United
States District Court for the Southern District of
Texas and the First District Court of Appeals of

A-86
Texas both describe Pasadena CT as being a joint
venture owned by Astra Oil Trading NV and
Petrobras. The First District Court of Appeals of
Texas, recently described the ownership of Pasadena
CT in this way:
In September 2006, a joint venture was
started between Pasadena Refining
System, Inc. ("PRSI"), [Pasadena Ct] . .
. . and PRSI Trading Company LP ("the
Trading Company"), an associated
partnership, which supplied the
refinery with feed stocks and crude oil.
Petrobras America Inc. ("Petrobras
America") and appellee, Astra Oil
Trading NV ("Astra Oil") each owned
one-half of the shares in PRSI. A
Shareholders Agreement governed
PRSI's operations.
Petrobras Am., Inc. v. Astra Oil Trading NV,
2012 Tex. App. LEXIS 2458 (Tex. App. Houston 1st
Dist. Mar. 29, 2012) (emphasis added). The United
States District Court for the Southern District of
Texas, Houston Division, said that Astra Oil and
Petrobras were "co-owners" of a joint venture,
Pasadena CT:
Petitioners Astra Oil Trading NV . . .
("Petitioners") seek in this action
judicial confirmation of an arbitral
award rendered in their favor against
Respondents
.
("Respondents").
Petitioners [Astra Oil Trading NV, et.
al.] and Respondents [Petrobras

A-87
America, Inc., et. al.] were 50% coowners of a joint venture consisting of
two companies. The first company-Pasadena Refining System, Inc.
("PRSI")--owns a refinery in Pasadena,
Texas. PRSI was governed by a
Shareholders Agreement between
[Astra Oil Trading NV] and [Petrobras
America, Inc., et. al.] . . . .
Astra Oil Trading NV v. Petrobras Am. Inc., 718
F. Supp. 2d 805 (S.D. Tex. 2010). Therefore, Astra
Oil Trading NV's ownership of Pasadena DE, Astra
and Pasadena CT changed after the merger.
There is also evidence that Pasadena CT acted as
if Pasadena DE no longer existed. After the merger
Pasadena CT obtained a new FTZ bond in its name,
applied to the grantee of the zone to be approved as
a new operator, and obtained a new tax
identification number. Request for Reconsideration,
May 5, 2010. While you say that this was not
because Pasadena CT believed such action
necessary, but "out of an abundance of caution,"
(Request for Reconsideration, May 5, 2010, page 3),
however, these actions demonstrate that the
management of Pasadena CT thought the changes
to the corporate entity that operated the FTZ were
significant enough to notify CBP and the surety.
Finally, you argue that Pasadena DE's status as
operator of the FTZ vested in the surviving
corporation where it is preserved and continued."
You contend that there is no federal law to trump
the state law that vests all the rights, privileges and

A-88
powers of the merged corporation in the surviving
corporation. You say that means that Pasadena
DE's right to operate the FTZ vested in Pasadena
CT, the surviving corporation. However, operation
of an FTZ is a privilege not a right. Moreover, CBP
does not permit the sale or transfer of the FTZ
operator status between entities.
The CBP
Regulations and the FTZM require that new FTZ
operators be approved prior to operating a zone. See
FTZM 4.13(a) and 19 C.F.R. § 146.7(e). As explained
above, since Pasadena DE ceased to exist, CBP's
approval to operate the FTZ also ceased. Pasadena
CT therefore, must be a new operator. This new
operator must apply for approval to operate the FTZ.
HOLDING:
Based on the above, we find that there is no legal
basis to alter the determination in HRL H027423,
that Pasadena Refining System Inc. (Pasadena DE)
ceased to exist after the merger and the resulting
entity, Pasadena CT is a new entity and hence, is a
new zone operator.
Sincerely
/s/ Sandra L. Bell
Sandra L. Bell
Executive Director
Regulations and Rulings
Office of International Trade

A-89

THE SUPREME COURT OF TEXAS
Orders Pronounced May 29, 2020
ORDERS ON CAUSES
THE MOTIONS FOR REHEARING OF THE
FOLLOWING CAUSES ARE DENIED

[…]
18-0664

PRSI TRADING, LLC v. HARRIS
COUNTY, TEXAS; from Harris
County; 1st Court of Appeals
District
(01-16-00389-CV,
579
S.W.3d 77, 06-22-17)

(Justice Boyd
participating)

and

Justice

[…]

Bland

not

A-90
19 U.S.C. § 81a(b)
(b)
The term “Board” means the Board which is
established to carry out the provisions of this
chapter. The Board shall consist of the Secretary of
Commerce, who shall be chairman and executive
officer of the Board, and the Secretary of the
Treasury;
19 U.S.C. § 81b(a)
(a)

Board authorization to grant zones

The Board is authorized, subject to the conditions
and restrictions of this chapter and of the rules and
regulations made thereunder, upon application as
hereinafter provided, to grant to corporations the
privilege of establishing, operating, and maintaining
foreign-trade zones in or adjacent to ports of entry
under the jurisdiction of the United States.
19 U.S.C. § 81c(a)
(a)
Handling of merchandise in zone;
shipment of foreign merchandise into customs
territory; appraisal; reshipment to zone
Foreign and domestic merchandise of every
description, except such as is prohibited by law,
may, without being subject to the customs laws of
the United States, except as otherwise provided in
this chapter, be brought into a zone and may be
stored, sold, exhibited, broken up, repacked,
assembled, distributed, sorted, graded, cleaned,
mixed with foreign or domestic merchandise, or
otherwise manipulated, or be manufactured except
as otherwise provided in this chapter, and be
exported, destroyed, or sent into customs territory of

A-91
the United States therefrom, in the original package
or otherwise; but when foreign merchandise is so
sent from a zone into customs territory of the United
States it shall be subject to the laws and regulations
of the United States affecting imported
merchandise: Provided, That whenever the privilege
shall be requested and there has been no
manipulation or manufacture effecting a change in
tariff classification, the appropriate customs officer
shall take under supervision any lot or part of a lot
of foreign merchandise in a zone, cause it to be
appraised and taxes determined and duties
liquidated thereon. Merchandise so taken under
supervision may be stored, manipulated, or
manufactured
under
the
supervision
and
regulations prescribed by the Secretary of the
Treasury, and whether mixed or manufactured with
domestic merchandise or not may, under regulations
prescribed by the Secretary of the Treasury, be
exported or destroyed, or may be sent into customs
territory upon the payment of such liquidated duties
and determined taxes thereon. If merchandise so
taken under supervision has been manipulated or
manufactured, such duties and taxes shall be
payable on the quantity of such foreign merchandise
used in the manipulation or manufacture of the
entered article. Allowance shall be made for
recoverable and irrecoverable waste; and if
recoverable waste is sent into customs territory, it
shall be dutiable and taxable in its condition and
quantity and at its weight at the time of entry.
Where two or more products result from the
manipulation or manufacture of merchandise in a

A-92
zone the liquidated duties and determined taxes
shall be distributed to the several products in
accordance with their relative value at the time of
separation with due allowance for waste as provided
for above: Provided further, That subject to such
regulations respecting identity and the safeguarding
of the revenue as the Secretary of the Treasury may
deem necessary, articles, the growth, product, or
manufacture of the United States, on which all
internal-revenue taxes have been paid, if subject
thereto, and articles previously imported on which
duty and/or tax has been paid, or which have been
admitted free of duty and tax, may be taken into a
zone from the customs territory of the United States,
placed under the supervision of the appropriate
customs officer, and whether or not they have been
combined with or made part, while in such zone, of
other articles, may be brought back thereto free of
quotas, duty, or tax: Provided further, That if in the
opinion of the Secretary of the Treasury their
identity has been lost, such articles not entitled to
free entry by reason of noncompliance with the
requirements made hereunder by the Secretary of
the Treasury shall be treated when they reenter
customs territory of the United States as foreign
merchandise under the provisions of the tariff and
internal-revenue laws in force at that time: Provided
further, That under the rules and regulations of the
controlling Federal agencies, articles which have
been taken into a zone from customs territory for the
sole purpose of exportation, destruction (except
destruction of distilled spirits, wines, and fermented

A-93
malt liquors), or storage shall be considered to be
exported for the purpose of—
(1) the draw-back, warehousing, and bonding, or
any other provisions of the Tariff Act of 1930, as
amended, and the regulations thereunder; and
(2) the statutes and bonds exacted for the
payment of draw-back, refund, or exemption
from liability for internal-revenue taxes and for
the purposes of the internal-revenue laws
generally and the regulations thereunder.
Such a transfer may also be considered an
exportation for the purposes of other Federal laws
insofar as Federal agencies charged with the
enforcement of those laws deem it advisable. Such
articles may not be returned to customs territory for
domestic consumption except where the ForeignTrade Zones Board deems such return to be in the
public interest, in which event the articles shall be
subject to the provisions of paragraph 1615(f) of
section 1201 of this title: Provided further, That no
operation involving any foreign or domestic
merchandise brought into a zone which operation
would be subject to any provision or provisions of
section 1807, chapter 15, chapter 16, chapter 17,
chapter 21, chapter 23, chapter 24, chapter 25,
chapter 26, or chapter 32 of the Internal Revenue
Code if performed in customs territory, or involving
the manufacture of any article provided for in
paragraphs 367 or 368 of section 1001 of this title,
shall be permitted in a zone except those operations
(other than rectification of distilled spirits and
wines, or the manufacture or production of alcoholic

A-94
products unfit for beverage purposes) which were
permissible under this chapter prior to July 1, 1949:
Provided further, That articles produced or
manufactured in a zone and exported therefrom
shall on subsequent importation into the customs
territory of the United States be subject to the
import laws applicable to like articles manufactured
in a foreign country, except that articles produced or
manufactured in a zone exclusively with the use of
domestic merchandise, the identity of which has
been maintained in accordance with the second
proviso of this section may, on such importation, be
entered as American goods returned: Provided,
further, That no merchandise that consists of goods
subject to USMCA drawback, as defined in section
4534(a) of this title, that is manufactured or
otherwise changed in condition shall be exported to
a USMCA country, as defined in section 4502 of this
title, without an assessment of a duty on the
merchandise in its condition and quantity, and at its
weight, at the time of its exportation (or if the
privilege in the first proviso to this subsection was
requested, an assessment of a duty on the
merchandise in its condition and quantity, and at its
weight, at the time of its admission into the zone)
and the payment of the assessed duty before the 61st
day after the date of exportation of the article, except
that upon the presentation, before such 61st day, of
satisfactory evidence of the amount of any customs
duties paid or owed to the USMCA country on the
article, the customs duty may be waived or reduced
(subject to section 508(b)(2)(B) of the Tariff Act of
1930 [19 U.S.C. 1508(b)(2)(B)]) in an amount that

A-95
does not exceed the lesser of (1) the total amount of
customs duties paid or owed on the merchandise on
importation into the United States, or (2) the total
amount of customs duties paid on the article to the
USMCA country: Provided, further, That, if Canada
ceases to be a USMCA country and the suspension
of the operation of the United States-Canada FreeTrade Agreement thereafter terminates, with the
exception of drawback eligible goods under section
204(a) of the United States-Canada Free-Trade
Agreement Implementation Act of 1988, no article
manufactured or otherwise changed in condition
(except a change by cleaning, testing or repacking)
shall be exported to Canada during the period such
Agreement is in operation without the payment of a
duty that shall be payable on the article in its
condition and quantity, and at its weight, at the time
of its exportation to Canada unless the privilege in
the first proviso to this subsection was requested:
Provided further, That no merchandise that consists
of goods subject to Chile FTA drawback, as defined
in section 203(a) of the United States-Chile Free
Trade Agreement Implementation Act, that is
manufactured or otherwise changed in condition
shall be exported to Chile without an assessment of
a duty on the merchandise in its condition and
quantity, and at its weight, at the time of its
exportation (or if the privilege in the first proviso to
this subsection was requested, an assessment of a
duty on the merchandise in its condition and
quantity, and at its weight, at the time of its
admission into the zone) and the payment of the
assessed duty before the 61st day after the date of

A-96
exportation of the article, except that the customs
duty may be waived or reduced by (1) 100 percent
during the 8-year period beginning on January 1,
2004; (2) 75 percent during the 1-year period
beginning on January 1, 2012; (3) 50 percent during
the 1-year period beginning on January 1, 2013; and
(4) 25 percent during the 1-year period beginning on
January 1, 2014.
19 U.S.C. § 81h
The Board shall prescribe such rules and
regulations not inconsistent with the provisions of
this chapter or the rules and regulations of the
Secretary of the Treasury made hereunder and as
may be necessary to carry out this chapter.
19 U.S.C. § 81o(e)
(e) Exemption from State and Local Ad
Valorem Taxation of Tangible Personal
Property
Tangible personal property imported from
outside the United States and held in a zone for the
purpose of storage, sale, exhibition, repackaging,
assembly, distribution, sorting, grading, cleaning,
mixing, display, manufacturing, or processing, and
tangible personal property produced in the
United States and held in a zone for exportation,
either in its original form or as altered by any of the
above processes, shall be exempt from State and
local ad valorem taxation.
15 C.F.R. § 400.1(c)
(c) To the extent “activated” under Customs
procedures in 19 CFR part 146, and only for the

A-97
purposes specified in the Act (19 U.S.C. 81c), zones
are treated for purposes of the tariff laws and
Customs entry procedures as being outside the
Customs territory of the United States. Under zone
procedures, foreign and domestic merchandise may
be admitted into zones for operations such as
storage, exhibition, assembly, manufacture and
processing, without being subject to formal Customs
entry procedures and payment of duties, unless and
until the foreign merchandise enters Customs
territory for domestic consumption. At that time, the
importer ordinarily has a choice of paying duties
either at the rate applicable to the foreign material
in its condition as admitted into a zone, or if used in
manufacturing or processing, to the emerging
product. Quota restrictions do not normally apply to
foreign goods in zones. The Board can deny or limit
the use of zone procedures in specific cases on public
interest grounds. Merchandise moved into zones for
export (zone-restricted status) may be considered
exported for purposes such as federal excise tax
rebates
and
Customs
drawback.
Foreign
merchandise (tangible personal property) admitted
to a zone and domestic merchandise held in a zone
for exportation are exempt from certain state and
local ad valorem taxes (19 U.S.C. 81o(e)). Articles
admitted into zones for purposes not specified in the
Act shall be subject to the tariff laws and regular
entry procedures, including the payment of
applicable duties, taxes, and fees.

A-98
15 C.F.R. § 400.42(a)
Requirements for commencement of
operations in a zone project.
(a) In general. The following actions are required
before operations in a zone may commence:
(1) Approval by the Port Director of an
application for activation is required as provided
in 19 CFR part 146; and
(2) The Executive Secretary will review proposed
manufacturing or processing, pursuant to §
400.32, and a zone schedule as provided in this
section.
19 C.F.R. § 146.1
(a) The following words, defined in section 1 of the
Foreign-Trade Zones Act of 1934, as amended (19
U.S.C. 81a), are given the same meaning when used
in this part, unless otherwise stated: “Board”,
“Grantee”, and “Zones”.
(b) The following are general definitions for the
purpose of this part:Act. “Act” means the ForeignTrade Zones Act of June 18, 1934, as amended (48
Stat. 998-1003; 19 U.S.C. 81a-u).
Activation. “Activation” means approval by the
grantee and port director for operations and for the
admission and handling of merchandise in zone
status.
Admit. “Admit” means to bring merchandise into a
zone with zone status.
Alteration. “Alteration” means a change in the
boundaries of an activated zone or subzone;

A-99
activation of a separate site of an already-activated
zone or subzone with the same operator at the same
port; or the relocation of an already-activated site
with the same operator.
Conditionally
admissible
merchandise. “Conditionally
admissible
merchandise” is merchandise which may be
imported into the U.S. under certain conditions.
Merchandise which is subject to permits or licenses,
or which may be reconditioned to bring it into
compliance with the laws administered by various
Federal agencies, is an example of conditionally
admissible merchandise.
Constructive transfer. “Constructive transfer” is a
legal fiction which permits acceptance of a Customs
entry for merchandise in a zone before its physical
transfer to the Customs territory.
Customs territory. “Customs territory” is the
territory of the U.S. in which the general tariff laws
of the U.S. apply. “Customs territory of the United
States” includes only the States, the District of
Columbia, and Puerto Rico. (General Note 2,
Harmonized Tariff Schedule of the United States (19
U.S.C. 1202)).
Deactivation. “Deactivation”
means
voluntary
discontinuation of the activation of an entire zone or
subzone by the grantee or operator. Discontinuance
of the activated status of only a part of a zone site is
an alteration.
Default. “Default” means an action or omission that
will result in a claim for duties, taxes, charges, or

A-100
liquidated damages under the Foreign Trade Zone
Operator Bond.
Domestic merchandise. “Domestic merchandise” is
merchandise which has been (i) produced in the U.S.
and not exported therefrom, or (ii) previously
imported into Customs territory and properly
released from Customs custody.
Foreign merchandise. “Foreign merchandise” is
imported merchandise which has not been properly
released from Customs custody in Customs
territory.
Fungible merchandise. “Fungible merchandise”
means merchandise which for commercial purposes
is identical and interchangeable in all situations.
Merchandise. “Merchandise” includes goods, wares
and chattels of every description, except prohibited
merchandise. Building materials, production
equipment, and supplies for use in operation of a
zone are not “merchandise” for the purpose of this
part.
Operator. “Operator” is a corporation, partnership,
or person that operates a zone or subzone under the
terms of an agreement with the zone grantee. Where
used in this part, the term “operator” also applies to
a “grantee” that operates its own zone.
Port Director. For those foreign trade zones located
within the geographical limits of a port of entry, the
term “port director” means the director of that port
of entry. For those foreign trade zones located
outside the geographical limits of a port of entry, the
term “port director” means the director of the port of

A-101
entry geographically nearest to where the foreign
trade zone is located.
Prohibited merchandise. “Prohibited merchandise”
is merchandise the importation of which is
prohibited by law on grounds of public policy or
morals, or any merchandise which is excluded from
a zone by order of the Board. Books urging treason
or insurrection against the U.S., obscene pictures,
and lottery tickets are examples of prohibited
merchandise.
Reactivation. “Reactivation” means a resumption of
the activated status of an entire area that was
previously deactivated without any change in the
operator or the area boundaries. If the boundaries
are different, the action is an alteration. If the
operator is different, it is an activation.
Subzone. “Subzone” is a special-purpose zone
established as part of a zone project for a limited
purpose, that cannot be accommodated within an
existing zone. The term “zone” also applies to a
subzone, unless specified otherwise.
Transfer. “Transfer” means to take merchandise
with zone status from a zone for consumption,
transportation, exportation, warehousing, cartage
or lighterage, vessel supplies and equipment,
admission to another zone, and like purposes.
Unique identifier. “Unique identifier” means the
numbers, letters, or combination of numbers and
letters that identify merchandise admitted to a zone
with zone status.

A-102
User. “User” means a person or firm using a zone or
subzone for storage, handling, or processing of
merchandise.
Zone lot. “Zone lot” means a collection of
merchandise maintained under an inventory control
method based on specific identification of
merchandise admitted to a zone by lot.
Zone site. “Zone site” means the physical location of
a zone or subzone.
Zone status. “Zone status” means the status of
merchandise admitted to a zone, i.e., nonprivileged
foreign, privileged foreign, zone restricted, or
domestic.
19 C.F.R. § 146.6
(a) Application. A zone operator, or where there is no
operator, a grantee, shall make written application
to the port director to obtain approval of activation
of a zone or zone site. The area to be activated may
be all or any portion of the zone approved by the
Board. The application must include a description of
all the zone sites covered by the application, any
operation to be conducted therein, and a statement
of the general character of the merchandise to be
admitted. The port director may also require the
operator or grantee to submit fingerprints on form
FD 258 or electronically at the time of filing the
application. If the operator is an individual, that
individual's fingerprints may be required. If the
operator or grantee is a business entity, fingerprints
of all officers and managing officials may be
required.

A-103
(b) Supporting documents. The application must be
accompanied by the following:
(1) [Reserved]
(2) A blueprint of the area approved by the Board
to be activated showing area measurements,
including all openings and buildings; and all
outlets, inlets, and pipelines to any tank for the
storage of liquid or similar product, that portion
of the blueprint certified to be correct by the
operator of the tank;
(3) A gauge table, when appropriate, showing the
capacity, in the appropriate unit, of any tank,
certified to be correct by the operator of the tank;
(4) A procedures manual describing the inventory
control and recordkeeping system that will be
used in the zone, certified by the operator or
grantee to meet the requirements of subpart B;
and
(5) The written concurrence of the grantee, when
the operator applies for activation, in the
requested zone activation.
(c) Inquiry by port director. As a condition of
approval of the application, the port director may
order an inquiry by a Customs officer into:
(1) The qualifications, character, and experience
of an operator and/or grantee and their principal
officers; and
(2) The security, suitability, and fitness of the
facility to receive merchandise in a zone status.

A-104
(d) Decision of the port director. The port director
shall promptly notify the applicant in writing of his
decision to approve or deny the application to
activate the zone. If the application is denied, the
notification will state the grounds for denial which
need not be limited to those listed in § 146.82. The
decision of the port director will be the final Customs
administrative determination in the matter. On
approval of the application, a Foreign Trade Zone
Operator's Bond shall be executed on Customs Form
301, containing the bond conditions of § 113.73 of
this chapter.
(e) Activation. Upon the port director's approval of
the application and acceptance of the executed bond,
the zone or zone site will be considered activated;
and merchandise may be admitted to the zone.
Execution of the bond by an operator does not lessen
the liability of the grantee to comply with the Act
and implementing regulations.
19 C.F.R. § 146.7(e)
(e) New operator. A grantee of an activated zone site
shall make written application to the port director
for approval of a new operator, submitting with the
application a certification by the new operator that
the inventory control and recordkeeping system
meets the requirements of subpart B, and a copy of
the system procedures manual if different from the
previous operator's manual. The port director may
order an inquiry into the qualifications, character,
and experience of the operator and its principal
officers.

A-105
19 C.F.R. § 177.9(a)
(a) Effect of ruling letters generally. A ruling letter
issued by the Customs Service under the provisions
of this part represents the official position of the
Customs Service with respect to the particular
transaction or issue described therein and is binding
on all Customs Service personnel in accordance with
the provisions of this section until modified or
revoked. In the absence of a change of practice or
other modification or revocation which affects the
principle of the ruling set forth in the ruling letter,
that principle may be cited as authority in the
disposition of transactions involving the same
circumstances. Generally, a ruling letter is effective
on the date it is issued and may be applied to all
entries which are unliquidated, or other
transactions with respect to which the Customs
Service has not taken final action on that date. See,
however, § 177.10(e) (changes of practice published
in the Federal Register) and § 177.12 (rulings which
modify or revoke previous rulings, decisions, or
treatments).

